No. _____

In the
Supreme Court of the United States
ERIC S. SCHMITT, in His Official Capacity as Attorney
General of Missouri, et al.,
Petitioners,
v.
REPRODUCTIVE HEALTH SERVICES OF PLANNED
PARENTHOOD OF THE ST. LOUIS REGION, et al.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit

PETITION FOR WRIT OF CERTIORARI
ERIC S. SCHMITT

Missouri Attorney General
D. JOHN SAUER
Solicitor General
Counsel of Record
JUSTIN D. SMITH
Deputy Attorney General
JESUS A. OSETE
Deputy Solicitor General
OFFICE OF THE MISSOURI
ATTORNEY GENERAL
Supreme Court Building
P.O. Box 899
Jefferson City, MO 65102
(573) 751-8870
John.Sauer@ago.mo.gov
Counsel for Petitioners

i
QUESTIONS PRESENTED
Missouri’s House Bill 126 (“HB 126”), enacted in
2019, prohibits medical providers from performing
abortions when the provider knows that the sole
reason for the abortion is a pretrial diagnosis or
screening indicating that the unborn child does, or
may, have Down syndrome (the “Down Syndrome
Provision”).
The same bill prohibits abortion
providers from performing abortions after eight
weeks, fourteen weeks, eighteen weeks, and twenty
weeks of gestational age, alternatively (the
“Gestational Age Restrictions”). The Eighth Circuit
invalidated both the Down Syndrome Provision and
the Gestational Age Restrictions as “categorically
unconstitutional” under Planned Parenthood of
Southeastern Pennsylvania v. Casey, 505 U.S. 833
(1992). The questions presented are:
1. Whether Missouri’s restriction on abortions
performed solely because the unborn child may have
Down syndrome is categorically invalid under Casey
and Roe v. Wade, 410 U.S. 113 (1973), or whether it is
a valid, reasonable regulation of abortion that seeks
to prevent the elimination of children with Down
syndrome through eugenic abortion?
2. Whether Missouri’s restrictions on abortions
performed after eight, fourteen, eighteen, and twenty
weeks of gestational age are categorically invalid, or
whether they are valid, reasonable regulations of
abortion that advance important state interests?
3. Whether the “penumbral” right to abortion
recognized in Roe v. Wade, 410 U.S. 113 (1973), and
partially reaffirmed in Planned Parenthood of
Southeastern Pennsylvania v. Casey, 505 U.S. 833
(1992), should be overruled?

ii
PARTIES TO THE PROCEEDING
Petitioners are Eric S. Schmitt, in his official
capacity as Attorney General of Missouri; Michael L.
Parson, in his official capacity as Governor of
Missouri; Jade D. James, in her official capacity as
President of the Missouri State Board of Registration
for the Healing Arts; Sarah Martin, in her official
capacity as Secretary of the Missouri Board of
Registration for the Healing Arts; Sammy L.
Alexander, in his official capacity as a Member of the
Missouri State Board of Registration for the Healing
Arts; James A. DiRenna, in his official capacity as a
Member of the Missouri State Board of Registration
for the Healing Arts; Jeffrey S. Glaser, in his official
capacity as a Member of the Missouri State Board of
Registration for the Healing Arts; Katherine J.
Matthews, in her official capacity as a Member of the
Missouri State Board of Registration for the Healing
Arts; Naveed Razzaque, in his official capacity as a
Member of the Missouri State Board of Registration
for the Healing Arts; David E. Tannehill, in his official
capacity as a Member of the Missouri State Board of
Registration for the Healing Arts; Marc K. Taormina,
in his official capacity as a Member of the Missouri
State Board of Registration for the Healing Arts; and
Robert Knodell, in his official capacity as acting
Director of the Department of Health & Senior
Services of the State of Missouri.
Respondents are Reproductive Health Services of
Planned Parenthood of the St. Louis Region, Inc., on
behalf of itself, its physicians, its staff, and its
patients; Dr. Colleen McNicholas, on behalf of herself
and her patients; and Kimberly Gardner, in her
official capacity as the Circuit Attorney for the City of
St. Louis.

iii
STATEMENT OF RELATED PROCEEDINGS
This case arises from the following proceedings:


Reproductive Health Services of Planned
Parenthood of the St. Louis Region v.
Parson, Nos. 19-2882, 19-3134 (8th Cir.)
(opinion affirming the orders of the district
court, issued June 9, 2021); and



Reproductive Health Services of Planned
Parenthood of the St. Louis Region v.
Parson, No. 2:19-cv-4155-HFS (W.D. Mo.)
(orders granting preliminary injunctions
entered on August 27, 2019, and September
27, 2019).

There are no other proceedings in state or federal
court or this Court directly related to this case within
the meaning of this Court’s Rule 14.1(b)(iii).

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED

.................................... i

PARTIES TO THE PROCEEDING .......................... ii
STATEMENT OF RELATED PROCEEDINGS ...... iii
TABLE OF AUTHORITIES .................................... vii
PETITION FOR WRIT OF CERTIORARI ............... 1
OPINIONS BELOW .................................................. 5
JURISDICTION ........................................................ 5
CONSTITUTIONAL, STATUTORY, AND
REGULATORY PROVISIONS INVOLED ............ 5
STATEMENT OF THE CASE .................................. 6
A. The Medical Establishment’s History of
Treating Children with Down Syndrome Has
Been “Dominated by Discrimination.” ........... 6
B. Missouri’s Down Syndrome Provision ......... 12
C. Missouri’s Gestational Age Restrictions ...... 14
D. Lower Court Proceedings ............................. 15
REASONS FOR GRANTING THE PETITION ..... 18
I. The Court Should Resolve the Circuit Split on
Whether a State May Restrict Abortions Obtained
Solely Because the Unborn Child May Have Down
Syndrome ............................................................ 18
A. There are compelling reasons to review this
question, and this case presents an ideal
vehicle to do so .............................................. 18
B. The Eighth Circuit’s resolution of this question
was erroneous ............................................... 21

v
II. The Court Should Review the Validity of
Missouri’s Gestational Age Restrictions or Hold
That Question for Dobbs .................................... 31
III.The “Penumbral” Right to Abortion Recognized in
Roe and Casey Should Be Overruled ................. 32
CONCLUSION ........................................................ 35
APPENDIX
Appendix A
Opinion, United States Court of Appeals for the
Eighth Circuit, Reproductive Health Services of
Planned Parenthood of the St. Louis Region, Inc. v.
Governor Michael L. Parson, et al.
(June 9, 2021) ..................................................... 1a
Appendix B
Supplemental Order Regarding Down Syndrome,
United States District Court for the Western
District
of
Missouri,
Central
Division,
Reproductive Health Services of Planned
Parenthood of the St. Louis Region, Inc. v. Michael
L. Parson, No. 2:19-cv-4155-HFS
(September 27, 2019) ....................................... 31a
Appendix C
Corrected Memorandum and Order, United States
District Court for the Western District of Missouri,
Central Division, Reproductive Health Services of
Planned Parenthood of the St. Louis Region, Inc. v.
Michael L. Parson, No. 2:19-cv-4155-HFS
(August 27, 2019) ............................................. 38a
Appendix D
U.S. Const. amend. XIV ................................... 55a
Appendix E
Section 188.026, RSMo .................................... 57a

vi
Appendix F
Section 188.038, RSMo
Appendix G
Section 188.056, RSMo
Appendix H
Section 188.057, RSMo
Appendix I
Section 188.058, RSMo
Appendix J
Section 188.375, RSMo

.................................... 71a
................................... 74a
.................................... 76a
.................................... 78a
.................................... 80a

vii
TABLE OF AUTHORITIES

Cases
Bd. of Dirs. of Rotary Int’l v. Rotary Club of Duarte,
481 U.S. 537 (1987) ................................................ 24
Bethune-Hill v. Virginia State Bd. of Elections,
137 S. Ct. 788 (2017) .............................................. 23
Bob Jones Univ. v. United States,
461 U.S. 574 (1983) ................................................ 24
Box v. Planned Parenthood of Indiana & Kentucky,
Inc.,
139 S. Ct. 1780 (2019) ........ 3, 6, 8, 12, 13, 18, 21, 24
Bucklew v. Precythe,
139 S. Ct. 1112 (2019) ............................................ 22
Chaplinksy v. New Hampshire,
315 U.S. 568 (1942) ................................................ 23
City of Akron v. Akron Ctr. for Reprod. Health, Inc.,
462 U.S. 416 (1983) ................................................ 33
Dobbs v. Jackson Women’s Health Organization,
No. 19-1392 (U.S.) ................................. 4, 20, 31, 32
FEC v. NRA Political Victory Fund,
513 U.S. 88 (1994) .................................................. 22
Fisher v. University of Texas,
136 S. Ct. 2198 (2016) ............................................ 23
Gonzales v. Carhart,
550 U.S. 124 (2004) ........................ 25, 26, 28, 29, 31

viii
Heart of Atlanta Motel v. United States,
379 U.S. 241 (1964) ................................................ 24
Illinois v. Lidster,
540 U.S. 419 (2004) ................................................ 22
Infant Doe v. Bloomington Hosp.,
104 S. Ct. 394 (Nov. 7, 1983) ....................................1
Jackson Women’s Health Org. v. Dobbs,
945 F.3d 265 (5th Cir. 2019) .................................. 33
Johnson v. California,
543 U.S. 499 (2005) ................................................ 23
Kovacs v. Cooper,
336 U.S. 77 (1949) .................................................. 23
Lewis v. Casey,
518 U.S. 343 (1996) ................................................ 22
Little Rock Fam. Plan. Servs. v. Rutledge,
397 F. Supp. 3d 1213 (E.D. Ark. 2019).................. 16
Little Rock Fam. Plan. Servs. v. Rutledge,
984 F.3d 682 (8th Cir. 2021) ............................ 19, 20
Planned Parenthood of Indiana and Kentucky Inc. v.
Commissioner of the Indiana State Dept of Health,
917 F.3d 532 (7th Cir. 2018) ................................. 19
Planned Parenthood of Indiana and Kentucky, Inc. v.
Comm’r of Indiana State Dep’t of Health,
888 F.3d 300 (7th Cir. 2018) ............................ 11, 19

ix
Planned Parenthood of Southeastern Pennsylvania v.
Casey,
505 U.S. 833 (1992) .................................i, 16, 21, 34
Preterm-Cleveland v. Himes,
940 F.3d 318 (6th Cir. 2019) ........................ 8, 12, 19
Preterm-Cleveland v. McCloud,
994 F.3d 512 (6th Cir. Apr. 13, 2021) .................... 19
Reprod. Health Servs. of Planned Parenthood of St.
Louis Region, Inc. v. Parson (RHS I),
389 F. Supp. 3d 631 (W.D. Mo. Aug. 27, 2019)
............................................................................ 5, 16
Reprod. Health Servs. of Planned Parenthood of St.
Louis Region, Inc. v. Parson (RHS II),
408 F. Supp. 3d 1049 (W.D. Mo. Sept. 27, 2019) ......
..................................................................................5
Reprod. Health Servs. of Planned Parenthood of the
St. Louis Region v. Parson,
-- F.4th --, 2021 WL 2345256
(8th Cir. June 9, 2021) ................................. 5, 16, 17
Roberts v. U.S. Jaycees,
468 U.S. 609 (1984) ................................................ 24
Roe v. Wade,
410 U.S. 113 (1973) .................................i, 22, 32, 33
Steel Co. v. Citizens for a Better Env’t,
523 U.S. 83 (1998) .................................................. 21
Thornburgh v. Am. Coll. of Obstetricians &
Gynecologists,
476 U.S. 747 (1986) ................................................ 34

x
United States v. L.A. Tucker Truck Lines, Inc.,
344 U.S. 33 (1952) .................................................. 21
Washington v. Glucksberg,
521 U.S. 702 (1997) .......................................... 25, 30
Webster v. Reprod. Health Servs.,
492 U.S. 490 (1989) ................................................ 34
Williams-Yulee v. Florida Bar,
135 S. Ct. 1656 (2015) ............................................ 23

Statutes
28 U.S.C. § 1254 ..........................................................5
29 U.S.C. § 794 .................................................... 24, 25
42 U.S.C. § 12132 ...................................................... 24
Ariz. Rev. Stat. § 13-3603.02 .................................... 13
Ark. Code Ann. 20-16-2102 ....................................... 13
Ind. Code § 16-34-4-6 ................................................ 13
Ky. Rev. Stat. § 311.731(2)(c) .................................... 13
La. Rev. Stat. § 40:1061.1.2 ...................................... 13
Miss. Code Ann. § 41-41-407..................................... 13
Mo. Rev. Stat. § 188.026 .............................................5
Mo. Rev. Stat. § 188.026.2(17)–(23) .................... 15, 34
Mo. Rev. Stat. § 188.026.2(24)–(25) .......................... 15

xi
Mo. Rev. Stat. § 188.026.2(29)(b) .............................. 34
Mo. Rev. Stat. § 188.026.2(33)(a)–(d), (34) ............... 15
Mo. Rev. Stat. § 188.026.2(35) .................................. 15
Mo. Rev. Stat. § 188.026.5(5) .................................... 15
Mo. Rev. Stat. § 188.038 ....................................... 5, 12
Mo. Rev. Stat. § 188.038.1(1), (6) .............................. 25
Mo. Rev. Stat. § 188.038.1(6) .............................. 13, 27
Mo. Rev. Stat. § 188.056, RSMo...................... 5, 14, 31
Mo. Rev. Stat. § 188.057, RSMo...................... 5, 14, 31
Mo. Rev. Stat. § 188.058, RSMo...................... 5, 14, 31
Mo. Rev. Stat. § 188.375, RSMo...................... 5, 14, 31
N.D. Cent. Code § 14-02.1-04 .................................... 13
Ohio Rev. Code § 2919.10(B)..................................... 13
SD Stat. § 34-23A-90 ................................................. 13
Tenn. Code Ann. § 39-15-217 .................................... 13
Utah Code § 76-7-302.4 ............................................. 13

Other Authorities
Am. College of Obstetricians and Gynecologists,
Committee Opinion No. 393: Newborn Screening
(2007) ..................................................................... 8

xii
Arthur L. Caplan, Chloe’s Law: A Powerful
Legislative Movement Challenging a Core Ethical
Norm of Genetic Testing, PLOS BIOLOGY 13(8)
(Aug. 2015) ...................................................... 2, 10
Alexandra DeSanctis, Iceland Eliminates People with
Down Syndrome, NATIONAL REVIEW (Aug. 16,
2017) ...................................................................... 9
Michael A. Grodin et al., The Nazi Physicians as
Leaders in Eugenics and “Euthanasia”: Lessons
for Today, 108 AM. J. PUB. HEALTH 53–57 (Jan.
2018) .................................................................... 26
A. Guibilini & Francesca Minerva, After-Birth
Abortion: Why Should the Baby Live?, 39 J. OF
MED. ETHICS 261–63 (2013) ................................ 27
Guttmacher Institute, State Legislation Tracker:
Abortion Due to Genetic Anomaly Banned (visited
June 29, 2021) ..................................................... 13
Sujatha Jesudason & Anat Shenker-Osorio, Sex
Selection in America: Why It Persists and How We
Can Change It, THE ATLANTIC (May 31, 2012) .. 26
Lauren Knight, On Her Way: Grace’s Bus Stop, ST.
LOUIS MAG. (Mar. 21, 2014) ................................ 29
Harry J. Lieman, M.D. & Andrzej K. Breborowicz,
M.D., Ph.D., Sex Selection for Family Balancing,
16 AMA JOURNAL OF ETHICS 797 (Oct. 2014) ..... 26

xiii
Heidi Lindh et al., Characteristics and Perspectives of
Families Waiting to Adopt a Child with Down
Syndrome, 9 GENETICS IN MED. 235, 235 (Apr.
2007) .................................................................... 11
Rita L. Marker et al., Euthanasia: A Historical
Overview, MD. J. CONTEMP. LEGAL ISSUES 2(2)
257–298 (1991) .................................................... 25
Linda L. McCabe & Edward R.B. McCabe, Call for
Change in Prenatal Counseling for Down
Syndrome, 158A AM. J. OF MED. GENETICS 482,
482 (Feb. 7, 2012) .................................................. 9
Kate Santich, Maitland Triathlete Chris Nikic 1st
Person with Down Syndrome to Finish Ironman,
ORLANDO SENTINEL (Nov. 9, 2020) ........................ 1
Marsha Saxton, Disability Rights and Selective
Abortion, in ABORTION WARS: A HALF CENTURY OF
STRUGGLE: 1950 TO 2000 (1998) .......................... 29
Kurt Streeter, Chris Nikic, You Are an Ironman. And
Your Journey Is Remarkable, N.Y. TIMES (Nov.
16, 2020) ................................................................ 2
Testimony of Frank Stephens, Down Syndrome:
Update on the State of the Science & Potential for
Discoveries Across Other Major Diseases Before
the H. Subcomm. on Labor, Health and Human
Servs., and Ed. Comm. on Appropriations, at 2
(Oct. 25, 2017) ..................................................... 27

xiv
George Will, The Real Down Syndrome Problem:
Accepting Genocide, WASH. POST (Mar. 14, 2018) 6

1
PETITION FOR WRIT OF CERTIORARI
In 1982, Dr. Walter L. Owens, an obstetrician in
Bloomington, Indiana, delivered “Baby Doe,” an
infant with Down syndrome and a trachea-esophageal
fistula. Dr. Owens recommended that Baby Doe
should be denied routine surgery to correct the fistula
and left to die of starvation and thirst. In sworn
testimony, Dr. Owens stated:
I insisted upon telling the parents … that if this
surgery were performed and it were successful and
the child survived, that this would still not be a
normal child. That it would still be a mongoloid, a
Down’s syndrome child with all of the problems
that even the best of them have. … Some of these
children, as I indicated in my testimony to Judge
Baker, are mere blobs. … [Their] talk consists of a
single word or something of this sort at best. …
These children are quite incapable of telling us
what they feel, and what they sense, and so on.
C.A. App. 515–16 (emphasis added); see also Pet.,
Infant Doe v. Bloomington Hosp., at 8 (No. 83-437),
denied 104 S. Ct. 394 (Nov. 7, 1983).
Thirty-eight years later, on November 7, 2020,
Chris Nikic became the first person with Down
syndrome to complete an Ironman triathlon. Kate
Santich, Maitland Triathlete Chris Nikic 1st Person
with Down Syndrome to Finish Ironman, ORLANDO
SENTINEL (Nov. 9, 2020). Chris’s father said, “From
the time he was born, we were told by everyone that
he’d never do anything or amount to anything or be
able to accomplish anything [beyond] being able to tie
his own shoes.” Id. (alteration in original). “The
doctors and experts said I couldn’t do anything,” Chris
told a reporter after his triumph. “So I said, ‘Doctor!

2
Experts! You need to stop doing this to me. You’re
wrong!’” Id.
At mile 10 of the marathon, the final leg of Chris’s
Ironman, he almost gave up due to weakness and
extreme pain. At that point, “Nik Nikic clutched his
son, drew him close and whispered in his ear: ‘Are you
going to let your pain win, or let your dreams win?’ …
‘My dreams,’ he told his father, ‘are going to win.’”
Kurt Streeter, Chris Nikic, You Are an Ironman. And
Your Journey Is Remarkable, N.Y. TIMES (Nov. 16,
2020), https://nyti.ms/3y3geh8.
Our society has come a long way in 39 years, since
doctors viewed people like Chris Nikic as “mere blobs”
who “are quite incapable of telling us what they feel,
and what they sense.” C.A. App. 516. (Chris now has
113,000 followers on Instagram.) But despite these
advances, deeply entrenched forces within our
medical establishment continue to treat unborn
children with Down syndrome as “mere blobs.”
Unborn children with Down syndrome are aborted at
epidemic rates.
Medicalized discrimination and
directive counseling contribute heavily to their
elimination. “When it comes to testing for Down
syndrome, the impact of genetic testing and
counseling is clear—abortions.” Arthur L. Caplan,
Chloe’s Law: A Powerful Legislative Movement
Challenging a Core Ethical Norm of Genetic Testing,
PLOS BIOLOGY 13(8) (Aug. 2015).
In the United States, “abortion rates for Down
syndrome infants … are at least 67% after a prenatal
diagnosis,” and may be as high as 93 percent. C.A.
App. 526, 434–35. “In Iceland, the abortion rate for
children diagnosed with Down syndrome in utero
approaches 100%,” and the rate is “98% in Denmark,

3
90% in the United Kingdom, 77% in France, and 67%
in the United States.” Box v. Planned Parenthood of
Indiana & Kentucky, Inc., 139 S. Ct. 1780, 1790–91
(2019) (Thomas, J., concurring). “[A]bortion is an act
rife with the potential for eugenic manipulation,” id.
at 1787, and it is used to eliminate people with Down
syndrome solely because of their disability. They are
now one generation away from complete elimination.
In the face of this genocidal crisis, Missouri and at
least 11 other States have enacted laws restricting the
eugenic abortion of the disabled, especially those with
Down syndrome. In 2019, this Court declined to
review the Seventh Circuit’s decision invalidating one
of these laws—Indiana’s—because no Circuit split yet
existed. Box, 139 S. Ct. at 1782 (Thomas, J.,
concurring). Since then, a clear and well-developed
split of authority has emerged. Two more Circuits—
the Sixth and Eighth—have addressed the validity of
laws restricting the abortion of children with Down
syndrome enacted by three more States—Missouri,
Arkansas, and Ohio. The en banc Sixth Circuit has
upheld Ohio’s law, while the Eighth Circuit has
followed the Seventh Circuit in invalidating
Missouri’s and Arkansas’s laws.1 There are now
“compelling reasons” for this Court to review the
question. Sup. Ct. R. 10.

1

Arkansas recently filed a petition for writ of certiorari
seeking review of the Eighth Circuit’s decision invalidating
its law, raising similar issues to this petition. See Rutledge
v. Little Rock Family Planning, No. 20-1434 (Petition filed
Apr. 9, 2021); see also Br. of Missouri and 21 Other States
as Amici Curiae Supporting Petitioner in No. 20-1434 (filed
May 13, 2021).

4
And the question is one of tremendous urgency.
Eugenic abortion of children with Down syndrome at
genocidal levels is decimating the Down syndrome
community in America on a daily basis. Children with
Down syndrome contribute unique beauty, joy, and
diversity to their families and society. Yet the entire
Down syndrome community may, in upcoming years,
simply dwindle away. This Court should not delay in
resolving this issue of critical importance.
Just one month ago, in Dobbs v. Jackson Women’s
Health Organization, No. 19-1392 (U.S.) (order dated
May 17, 2021), this Court granted certiorari to review
the question “[w]hether all pre-viability prohibitions
on elective abortions are unconstitutional.” The
validity of Missouri’s Down Syndrome Provision
presents the Court with an additional, critical
dimension of that very question. The Circuits that
have invalidated restrictions on abortions of children
with Down syndrome, like the Eighth Circuit below,
have all relied on the mistaken notion that any
prohibition on pre-viability elective abortions is
categorically unconstitutional—the very proposition
to be reviewed in Dobbs. This disturbing outcome—
i.e., holding that States may not act to prevent the
eugenic elimination of an entire disabled
community—demonstrates the absurdity of giving a
positive answer to the question presented in Dobbs.
Considering the validity of Missouri’s Down
Syndrome Provision in parallel with Mississippi’s 15week gestational-age restriction at issue in Dobbs will
permit the Court to consider two important
dimensions of the same question—i.e., “[w]hether all
pre-viability prohibitions on elective abortions are
unconstitutional.”

5
OPINIONS BELOW
The district court’s opinion granting a preliminary
injunction against Missouri’s Gestational Age
Restrictions, Mo. Rev. Stat. §§ 188.056, 188.057,
188.058, and 188.375, is reported at 389 F. Supp. 3d
631 (W.D. Mo. Aug. 27, 2019), and reprinted at 38a–
54a of the Appendix.
The district court’s opinion granting a preliminary
injunction against Missouri’s Down Syndrome
Provision, Mo. Rev. Stat. § 188.038.2, is reported at
408 F. Supp. 3d 1049 (Sept. 27, 2019), and reprinted
at 31a–37a of the Appendix.
The Eighth Circuit’s opinion affirming both of the
district court’s orders is not yet reported in the
Federal Reporter. It is available at -- F.4th --, 2021
WL 2345256 (8th Cir. June 9, 2021), and reprinted at
1a–30a of the Appendix.
JURISDICTION
The Court of Appeals issued its judgment on June
9, 2021. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL, STATUTORY, AND
REGULATORY PROVISIONS INVOLVED
The Fourteenth Amendment to the United States
Constitution is reproduced at App. 55a–56a. Sections
188.026, 188.038, 188.056, 188.057, 188.058, and
188.375 of the Missouri Revised Statutes are
reproduced at App. 57a–82a.

6
STATEMENT OF THE CASE
A. The Medical Establishment’s History of
Treating Children with Down Syndrome
Has Been “Dominated by Discrimination.”
Our Nation has a recent, shameful, and continuing
history of medicalized discrimination against people
with Down syndrome. “[T]he history of the medical
establishment’s approach to Down syndrome over the
last century has been dominated by discrimination.”
C.A. App. 513. This discrimination was rooted in the
early twentieth-century eugenic movement’s rejection
of the “feeble-minded” as “unfit” and worthy of
“elimination.” Box, 139 S. Ct. at 1784–86 (Thomas, J.,
concurring). Until the 1980s, “forced sterilization
programs,
the
routine
recommendation
of
institutionalization, and the denial of medical care to
those with complications related to Down syndrome
were the rule.” C.A. App. 513. “Sterilization,
lobotomies, experimental ‘treatments’ and physical
abuse were common at these facilities.” C.A. App.
514. “[T]he care provided the disabled in institutions”
was “horrific,” and the facilities were “characterized
as ‘hardly more than dying bins.’” C.A. App. 514.
Children with Down syndrome were prime targets for
sub-human treatment. As noted above, in court
testimony in 1982, the obstetrician in the infamous
“Baby Doe” case in Indiana described children with
Down syndrome as “mere blobs.” C.A. App. 516.
This medicalized discrimination was lethal for
persons with Down syndrome.
“The mean life
expectancy for individuals with Down syndrome in
1960 was 10 years. It had progressed to 47 years in
2007,” C.A. App. 513—and it now has advanced to 60
years.
George Will, The Real Down Syndrome

7
Problem: Accepting Genocide, WASH. POST (Mar. 14,
2018). Why did the life expectancy for children with
Down syndrome increase so dramatically? “It was not
until well into the 1980s that the medical profession
uniformly
abandoned
recommendations
for
institutionalization,” and that “institutions in which
Down syndrome individuals were neglected socially,
nutritionally and medically” were closed. C.A. App.
513. “It was also not until well into the later 1980s
that the medical community began to universally
consider cardiac and other interventions and
surgeries for infants with Down syndrome, and
abandoned
recommendations
for
institutionalization.” C.A. App. 513.
This institutionalization, abuse, and neglect of
children with Down syndrome came to an end, but its
demise was imposed on the medical establishment
from outside. “[P]olitical action spearheaded by
parent and disability rights groups, not physicians …
forced the medical community to extend commonly
accepted medical interventions to Down syndrome
patients.” C.A. App. 513. “It was the determination
of families and advocacy groups,” not physicians, “that
led to the reversal of most of the obvious
discriminatory medical practices suffered by the
Down syndrome community for decades.” C.A. App.
515.
This medicalized discrimination was not
eradicated, however. Pervasive biases against people
with Down syndrome persist in the medical
profession, and they are reflected in widespread
practice of eugenic abortion of unborn children with
Down syndrome. “[A]bortion is an act rife with the
potential for eugenic manipulation,” and “a growing
body of evidence suggests that eugenic goals are

8
already being realized through abortion.” Box, 139 S.
Ct. at 1787 (Thomas, J., concurring). “The eugenicist
impulse on display in Buck [v. Bell], and amplified in
its aftermath, is no mere relic of history. Today, many
countries celebrate the use of abortion to cleanse their
populations of babies whom some would view—
ignorantly—as sapping the strength of society.”
Preterm-Cleveland v. Himes, 940 F.3d 318, 326 (6th
Cir. 2019) (Batchelder, J., dissenting), opinion vacated
by en banc court, 944 F.3d 630 (6th Cir. Dec. 13, 2019).
The entrenched biases of the medical profession
influence parents of children with Down syndrome at
their point of greatest vulnerability—i.e., immediately
upon learning of a prenatal screening or diagnosis
indicating Down syndrome. See C.A. App. 520; see
also Am. College of Obstetricians and Gynecologists,
Committee Opinion No. 393: Newborn Screening
(2007). When it comes to Down syndrome, “[u]nlike
all other screening programs for a host of disorders,
these prenatal genetic screenings offer no corrective
intervention or earlier introduction of therapies to
deal with a condition.” C.A. App. 524. All too often,
in the medical mind, “[t]he ‘cure’ for Down syndrome
is the elimination of the infant.” C.A. App. 524.
Thus, when screening or diagnostic tests report the
possibility of Down syndrome, the counseling process
is heavily tilted toward abortion. “While non-directive
counseling is a stated aim for prenatal counseling, the
prejudices of providers and educational materials
invariably impact the provision of information
supplied to mothers and families.” C.A. App. 521.
Several studies indicate that the counseling received
by parents at their vulnerable moment of first
diagnosis heavily favors abortion. One survey found
that, among women receiving genetic counseling,

9
“83% reported they did not receive balanced
counseling regarding the quality of life for children
with disabilities.” C.A. App. 521. Another survey of
prenatal screening pamphlets found that “[n]early one
half of the statements portrayed a negative message
pertaining to Down syndrome, while only 2.4% of the
statements conveyed a positive image of Down
syndrome.” C.A. App. 521. Another survey of medical
professionals found that “[f]or Down syndrome, 60%
of obstetricians and 40% of geneticists reported
counseling for termination of the pregnancy in a
directive manner.” C.A. App. 522. Yet another survey
found that “[g]enetic counselors were more likely to
emphasize clinical information and negative aspects
of the diagnosis, while parents valued information
regarding the abilities and potential of individuals
with Down syndrome.” Linda L. McCabe & Edward
R.B. McCabe, Call for Change in Prenatal Counseling
for Down Syndrome, 158A AM. J. OF MED. GENETICS
482, 482 (Feb. 7, 2012). Likewise, in Iceland, a genetic
counselor admitted that parents receive “‘heavyhanded genetic counseling’ that is influencing
‘decisions that are not medical.’” Will, The Real Down
Syndrome Problem, supra.
In short, “many women report feeling pressured by
their doctors … to choose abortion if the test reveals
Down syndrome or other abnormalities. It is taken for
granted in the medical community that no woman
would carry a Down-syndrome pregnancy to term.”
Alexandra DeSanctis, Iceland Eliminates People with
Down Syndrome, NATIONAL REVIEW (Aug. 16, 2017).
And the practical outcome of such medicalized bias is
undeniable: “When it comes to testing for Down
syndrome, the impact of genetic testing and

10
counseling is clear—abortions.” Caplan, Chloe’s Law,
supra.
In this case, Plaintiffs’ expert filed his initial
declaration emphasizing that Down syndrome is
marked by intellectual disability, congenital heart
disease, shortened life expectancy, and significant
care into adulthood—without saying anything
positive about the lives of people with Down
syndrome. C.A. App. 135 (Bebbington Decl. ¶ 13). As
Missouri’s expert noted, this negative focus “is
consistent with the judgmental terminology offered by
physicians who consciously or not, perpetuate the
subtle discrimination that diminishes the value of
lives of those with Down syndrome.” C.A. App. 512.
Tellingly, Plaintiffs’ expert failed “to mention
anything positive about the impact of the lives of
Down syndrome individuals.” C.A. App. 519. Such
views provide “a glimpse into the biases and
negativism of many obstetrical providers that
provides fuel for the epidemic of Down syndrome
abortions.” C.A. App. 520. This “focus[] on difference,
deficiencies, illness, and burden to others” is “outdated and lacks appreciation for established strengths
of this population of individuals [and] the joy they
bring to their families.” C.A. App. 433.
And this negative focus is wholly divorced from
reality. Surveys demonstrate “that the overwhelming
majority of people with Down syndrome they surveyed
indicate they live happy and fulfilling lives,” and that
“the overwhelming majority of parents surveyed are
happy with their decision to have their child with
Down syndrome and indicate that their sons and
daughters are great sources of love and pride.” C.A.
App. 518. “[M]edical literature and parent reports
clearly show that families with a Down syndrome

11
member believe they are better for it,” at rates as high
as 97 and 99 percent. C.A. App. 526; see also Planned
Parenthood of Indiana and Kentucky, Inc. v. Comm’r
of Indiana State Dep’t of Health, 888 F.3d 300, 315–16
(7th Cir. 2018) (“PPINK”) (Manion, J., concurring in
the judgment in part and dissenting in part).
Empirical research shows that “mothers, fathers,
brothers, sisters, and people with [Down syndrome]
were overwhelmingly content and satisfied with their
lives.” C.A. App. 438. In a typical reaction, one parent
of a child with Down syndrome stated: “It is the most
beautiful experience of my life. I have no regret and
would not change anything if it was possible.” C.A.
App. 439.
The negative attitudes of the medical profession
lag behind those of society as a whole, which has come
to accept and celebrate people with Down syndrome.
Indeed, “[m]any families are eager to adopt children
with Down syndrome,” and there are long wait lists to
do so. Heidi Lindh et al., Characteristics and
Perspectives of Families Waiting to Adopt a Child with
Down Syndrome, 9 GENETICS IN MED. 235, 235 (Apr.
2007).
Notwithstanding the beauty and happiness
associated with Down syndrome in real life,
medicalized biases persistently favor eugenic
abortion. Among other factors, “prenatal testing
which targets the identification of Down syndrome
infants,” “counseling which offers little humanity and
focuses on intellectual impairment and medical
conditions,” and “a bias in the obstetrical community
to personally consider abortion for their own child
with Down syndrome,” have created “an environment
which produces abortion rates for Down syndrome
infants at epidemic proportions.” C.A. App. 524.

12
In sum, the “intolerance and subtle discrimination
of a culture toward those with intellectual
impairment,” C.A. App. 523, results in the abortion of
children with Down syndrome at genocidal levels—at
rates between 67 to 93 percent in the United States.
C.A. App. 526, 434. The rates in other Western
countries are even higher—approaching 100 percent.
Box, 139 S. Ct. at 1790–91 (Thomas, J., concurring);
see also C.A. App. 435. Iceland and similar countries
“celebrate the use of abortion to cleanse their
populations of babies” with Down syndrome. PretermCleveland, 940 F.3d at 326 (Batchelder, J.,
dissenting). Thus, in certain nations, the entire
community of Down syndrome people is on the brink
of elimination, and the United States is rapidly
following that trend. In the face of this imminent
crisis, Missouri enacted its Down Syndrome
Provision.
B. Missouri’s Down Syndrome Provision.
On May 17, 2019, the Missouri General Assembly
enacted House Bill 126 (“HB 126”), which Governor
Parson signed into law on May 24, 2019. C.A. App.
241–270.
HB 126 includes a restriction on abortions based
solely on the possibility of Down syndrome in the
unborn child. App. 72a; Mo. Rev. Stat. § 188.038. The
General Assembly provided that “[n]o person shall
perform or induce an abortion on a woman if the
person knows that the woman is seeking the abortion
solely because of a prenatal diagnosis, test, or
screening indicating Down Syndrome or the potential
of Down Syndrome in an unborn child.” App. 72a; Mo.
Rev. Stat. § 188.038.2.

13
In support of this provision, the Missouri General
Assembly made specific legislative findings. It found
that “[g]overnment has a legitimate interest in
preventing the abortion of unborn children with Down
Syndrome because it is a form of bias or disability
discrimination and victimizes the disabled unborn
child at his or her most vulnerable stage.” App. 72a;
Mo. Rev. Stat. § 188.038.1(6).
It found that
“[e]liminating unborn children with Down Syndrome
raises grave concerns for the lives of those who do live
with disabilities.” Id. And it found that “[e]liminating
unborn children with Down Syndrome … sends a
message of dwindling support for their unique
challenges, fosters a false sense that disability is
something that could have been avoidable, and is
likely to increase the stigma associated with
disability.” Id.
Missouri is one of at least twelve States that have
enacted restrictions to protect persons with Down
syndrome and other disabled communities from
eugenic abortion. See Mo. Rev. Stat. § 188.038.2;
2021 Ariz. Sess. Laws ch. 286, § 2 (amending Ariz.
Rev. Stat. § 13-3603.02); Ark. Code Ann. 20-16-2102
to 2107; Ind. Code § 16-34-4-6; N.D. Cent. Code § 1402.1-04; Ohio Rev. Code § 2919.10(B); Ky. Rev. Stat.
§ 311.731(2)(c); La. Rev. Stat. § 40:1061.1.2; Miss.
Code Ann. § 41-41-407; HB 1110, 96th Leg. Sess. (S.D.
2021) (enacted and codified at SD Stat. § 34-23A-90
(eff. July 1, 2021)); Tenn. Code Ann. § 39-15-217; Utah
Code § 76-7-302.4. See also Box, 139 S. Ct. at 1783 n.2
(Thomas, J., concurring) (citing state statutes).
Similar legislation is under consideration in many
other States. Guttmacher Institute, State Legislation
Tracker: Abortion Due to Genetic Anomaly Banned
(visited
June
29,
2021),
at

14
https://www.guttmacher.org/state-policy (noting that
legislation to ban abortions due to genetic anomaly
has been introduced in 21 more States).
C. Missouri’s Gestational Age Restrictions.
HB 126 also restricted abortions based on the
unborn child’s gestational age. Section 188.056 of the
statute provides that “no abortion shall be performed
or induced upon a woman at eight weeks gestational
age or later, except in cases of medical emergency.”
App. 74a; Mo. Rev. Stat. § 188.056.1. Section 188.057
provides that “no abortion shall be performed or
induced upon a woman at fourteen weeks gestational
age or later, except in cases of medical emergency.”
App. 76a; Mo. Rev. Stat. § 188.057.1. Section 188.058
provides that “no abortion shall be performed or
induced upon a woman at eighteen weeks gestational
age or later, except cases of medical emergency.” App.
78a; Mo. Rev. Stat. § 188.058.1. And Section 188.375
provides that “no abortion shall be performed or
induced upon a woman carrying a late-term paincapable unborn child, except in cases of medical
emergency,” where “the phrase ‘late-term paincapable unborn child’ shall mean an unborn child at
twenty weeks gestational age or later.” App. 80a; Mo.
Rev. Stat. § 188.375 (collectively, the “Gestational Age
Restrictions”).
To support these provisions, the Missouri General
Assembly made fifty detailed factual findings. C.A.
App. 246–251, 263–264. Among many others, the
General Assembly made findings about the
development of the unborn child’s capability to feel
pain, including scientific findings regarding the
neurophysical basis of pain-capability between 14
weeks and 20 weeks’ gestation. App. 61a–63a; Mo.

15
Rev. Stat. § 188.026.2(17)–(23).
The General
Assembly found that the predominant method of
second-trimester abortion in Missouri is dilation and
evacuation
(“D&E”),
which
“includes
the
dismemberment, disarticulation, and exsanguination
of the unborn child” while still alive, and that this
method of abortion is “brutal.” App. 63a; Mo. Rev.
Stat. § 188.026.2(24)–(25). In addition, the General
Assembly found that “[a]bortion procedures
performed later in pregnancy have a higher medical
risk for women,” and that “the relative risk increases
exponentially at later gestational ages” after eight
weeks’ gestation, including both “physical and
psychological consequences.” App.65a–66a; Mo. Rev.
Stat. § 188.026.2(33)(a)–(d), (34). The legislature also
found that the vast majority of Missouri women
seeking abortions do so before 18 weeks and 20 weeks
of gestational age.
App. 66a; Mo. Rev. Stat.
§ 188.026.2(35). Missouri found that HB 126 serves
critical state interests, including its sovereign interest
in “[p]reserving the integrity of the medical
profession” by “regulating and restricting practices
that might cause the medical profession or society as
a whole to become insensitive, even disdainful, to life.”
App. 69a; Mo. Rev. Stat. § 188.026.5(5).
In enacting HB 126, Missouri joined at least 21
other States in prohibiting abortion of unborn
children at or near 18 to 20 weeks’ gestational age.
C.A. App. 681 (citing 22 state statutes).
D.

Lower Court Proceedings.

On July 30, 2019, Respondents Reproductive
Health Services of Planned Parenthood of the St.
Louis Region and Dr. Colleen McNicholas filed facial
challenges to the Down Syndrome Provision and the

16
Gestational Age Restrictions.
C.A. App. 25–55.
Respondents moved for a preliminary injunction. C.A.
App. 71-75. In support of their motion, however,
Plaintiffs did not submit evidence to dispute most of
the State’s detailed legislative findings that set forth
its justification for HB 126. See C.A. App. 76–177.
Missouri
opposed
Plaintiffs’
request
for
preliminary injunction. C.A. App. 195–240. Missouri
submitted one factual and six expert declarations
supporting its legislative findings and its opposition
to injunctive relief. C.A. App. 271–539. Missouri’s
expert declarations included two affidavits addressing
the validity of the Down syndrome provision in detail,
as well as an affidavit addressing the impact of
aborting disabled children on the medical profession.
C.A. App. 370–73 (Curlin Decl.); C.A. App. 432–41
(Coleman Decl.); C.A. App. 509–27 (McCaffrey Decl.).
On August 27, 2019, the district court granted a
preliminary injunction against the enforcement of the
Gestational Age Restrictions.
App. 53a.
On
September 27, 2019, the district court granted a
preliminary injunction against the enforcement of the
Down Syndrome Provision. App. 37a. The district
court held that the Gestational Age Restrictions and
the Down Syndrome Provision constituted previability prohibitions on abortion that were
“categorical[ly]” invalid under Casey and Roe. App.
43a; 389 F. Supp. 3d at 635; see also id. at 634 n.3.
Missouri appealed both decisions to the U.S. Court
of Appeals for the Eighth Circuit. On June 9, 2021,
the Eighth Circuit affirmed the district court’s orders
in a 2-1 decision. App. 2a, Reprod. Health Servs. of
Planned Parenthood of the St. Louis Region v. Parson,
-- F.4th --, 2021 WL 2345256, at *1 (8th Cir. June 9,

17
2021). The Eighth Circuit held that Missouri’s
Gestational Age Restrictions constituted “bans” on
pre-viability abortions, and that such “[b]ans on previability abortions are categorically unconstitutional.”
Id. at *3–4, App. 8a. Likewise, the Court held that the
Down Syndrome Provision “bans access to abortion
entirely” because it “completely prohibit[s]” abortion
for a person who wants a pre-viability abortion solely
because the unborn child may have Down syndrome.
Id. at *4, App. 11a. Because “the Down Syndrome
Provision would prevent certain patients from getting
a pre-viability abortion at all,” the Eighth Circuit
reasoned, it “is a ban, not a regulation,” and thus
“categorically unconstitutional.” Id., App. 11a.
Judge Stras concurred in the judgment in part and
dissented in part. Id. at *6, App. 17a. He disagreed
with the majority that Respondents had made a
sufficient showing of irreparable injury from the
Down Syndrome Provision to warrant a preliminary
injunction. App. 20a-26a, id. at *8–9. On the merits,
Judge Stras concluded that he was bound by Eighth
Circuit precedent to invalidate the Down Syndrome
Provision, but “if [he] were writing on a blank slate,”
he would uphold it. Id. at *11, App. 28a. He noted
that prohibiting abortions for a single discriminatory
reason does not “ban” abortions or deprive women of
the “ultimate decision” to have an abortion: “Just like
Title VII does not ‘ban’ employers from firing
employees, neither does Missouri's law ‘ban’ women
from terminating their pregnancies.” Id. at *12, App.
29a.
Missouri then filed this timely petition for writ of
certiorari.

18
REASONS FOR GRANTING THE PETITION
I. The Court Should Resolve the Circuit
Split on Whether a State May Restrict
Abortions Obtained Solely Because the
Unborn Child May Have Down Syndrome.
The Court should grant certiorari to review the
validity of Missouri’s Down Syndrome Provision,
because the Eighth Circuit erroneously decided a
question of great urgency and importance that is the
subject of a well-developed Circuit split.
A.

There are compelling reasons to
review this question, and this case
presents an ideal vehicle to do so.

In Box, this Court “expresse[d] no view on the
merits of … whether Indiana may prohibit the
knowing provision of … disability-selective abortions
by abortion providers.” Box v. Planned Parenthood of
Indiana & Kentucky, Inc., 139 S. Ct. 1780, 1782
(2019). At that time, “[o]nly the Seventh Circuit ha[d]
thus far addressed this kind of law,” and the Court
followed its “ordinary practice of denying petitions
insofar as they raise legal issues that have not been
considered by additional Courts of Appeals.” Id.
(citing this Court’s Rule 10).
The Circuit split that was lacking at the time of
Box has now arisen. Since the Seventh Circuit’s
decision in Box invalidating Indiana’s prohibition
against disability-selective abortions, the Sixth and
Eighth Circuits have addressed the validity of similar
laws in Ohio, Arkansas, and Missouri. The laws of
three States (Indiana, Arkansas, and Missouri) have
been invalidated, while Ohio’s law has been upheld,
all in thoroughly reasoned, published opinions.

19
Compare Preterm-Cleveland v. McCloud, 994 F.3d 512
(6th Cir. Apr. 13, 2021) (en banc) (upholding Ohio’s
law), with App. 16a (invalidating Missouri’s law);
Little Rock Fam. Plan. Servs. v. Rutledge, 984 F.3d
682, 690 (8th Cir. 2021), cert. pet’n filed, No. 20-1434
(U.S. Apr. 9, 2021); (invalidating Arkansas’s law);
Planned Parenthood of Indiana & Kentucky, Inc. v.
Comm’r of Indiana State Dep’t of Health, 888 F.3d
300, 306 (7th Cir. 2018), rev’d in part on other grounds
sub nom. Box v. Planned Parenthood of Indiana &
Kentucky, Inc., 139 S. Ct. 1780 (2019) (invalidating
Indiana’s law). Moreover, these cases have produced
a wealth of separate concurring and dissenting
opinions analyzing the issues presented from every
side. See, e.g., App. 17a (Stras, J., concurring in the
judgment in part and dissenting in part); Pre-Term
Cleveland v. McCloud, 994 F.3d 512, 535 (6th Cir.
2021) (en banc) (Sutton, J., concurring); id. at 538
(Griffin, J., concurring); id. at 540 (Bush, J.,
concurring); id. at 550 (Cole, C.J., dissenting); id. at
551 (Moore, J., dissenting); id. at 563 (Clay, J.,
dissenting); id. at 568 (Gibbons, J., dissenting); id. at
569 (Donald, J., dissenting); Preterm-Cleveland, 940
F.3d at 318 (Batchelder, J., dissenting); PPINK, 888
F.3d at 311 (Manion, J., concurring in the judgment);
PPINK, 917 F.3d 532, 536 (7th Cir. 2018)
(Easterbrook, J., dissenting from the denial of
rehearing en banc). No further percolation is needed;
this is a well-developed, thoroughly considered split of
authority.
This Circuit split, moreover, implicates the laws of
many other States as well. At least 12 States have
enacted such laws, and many other States are actively
considering them. See supra. Thus, there is a clear,
well-developed Circuit split on an “important matter,”

20
which provides a “compelling reason[]” to review the
question. Sup. Ct. R. 10(a).
Moreover, this Term presents a uniquely
appropriate juncture for the Court to address this
important issue. In Dobbs v. Jackson Women’s Health
Organization, No. 19-1392 (May 17, 2021), this Court
granted certiorari to review the question “[w]hether
all pre-viability prohibitions on elective abortions are
unconstitutional,” in the context of Mississippi’s
statute prohibiting abortions after 15 weeks’
gestation. See id. The dispute over Missouri’s Down
Syndrome Provision presents another face of the same
coin. All three circuit-court decisions invalidating
state restrictions on abortions targeted at Down
syndrome rest on the proposition that all pre-viability
prohibitions on elective abortions are categorically
unconstitutional. App. 8a (“Bans on pre-viability
abortions are categorically unconstitutional.”);
Rutledge, 984 F.3d at 687 (holding that the “previability rule is categorical” and must be “applied …
categorically”); PPINK, 888 F.3d at 305 (stating that
the “holding that a woman has the right to terminate
her pregnancy prior to viability is categorical” and
“unambiguous”). The validity of state restrictions on
Down syndrome abortions presents an important
dimension of the same question that this Court has
already granted certiorari to review in Dobbs.
Further, addressing this question presents a
matter of great urgency. As noted above, the abortion
rate for children with Down syndrome in America is
between 67 and 93 percent. That presents an
existential crisis for the entire Down syndrome
community, which is already on the verge of
elimination in other Western countries.

21
Finally, Missouri’s case presents an ideal vehicle
to review this issue. The parties created a robust
record on the validity of the Down Syndrome
Provision, including expert declarations that address
the issue in great detail. See, e.g., C.A. App. 370–73,
432–41, 509–27. This evidence includes historical
analysis, contemporary studies, empirical evidence
regarding the frequency of Down syndrome abortions,
and testimony about the impact of medicalized
prejudice on the epidemic of abortions of children with
Down syndrome. See id. The validity of Missouri’s
Down Syndrome Provision was the principal focus of
briefing in the Court of Appeals, and the Eighth
Circuit’s majority and dissenting opinions address the
issue in significant detail. App. 1a–30a.
B. The Eighth Circuit’s resolution of this
question was erroneous.
The Court should also grant review because
Eighth Circuit’s decision invalidating Missouri’s
Down Syndrome Provision was gravely erroneous.
1. Casey did not decide this issue.
“Whatever else might be said about Casey, it did
not decide whether the Constitution requires States
to allow eugenic abortions.” Box, 139 S. Ct. at 1792
(Thomas, J., concurring). On the contrary, “the very
first paragraph of the respondents’ brief in Casey
made it clear to the Court that Pennsylvania’s
prohibition on sex-selective abortions was ‘not [being]
challenged.’” Id. (alteration in original). When an
issue “was not … raised in briefs or argument nor
discussed in the opinion of the Court,” then “the case
is not a binding precedent on this point.” United
States v. L.A. Tucker Truck Lines, Inc., 344 U.S. 33,
38 (1952); see also, e.g., Steel Co. v. Citizens for a Better

22
Env’t, 523 U.S. 83, 91 (1998); Lewis v. Casey, 518 U.S.
343, 352 n.2 (1996); FEC v. NRA Political Victory
Fund, 513 U.S. 88, 97 (1994); see also Bucklew v.
Precythe, 139 S. Ct. 1112, 1140 (2019) (Breyer, J.,
dissenting) (quoting Illinois v. Lidster, 540 U.S. 419,
424 (2004)).
In fact, Roe v. Wade explicitly rejected the
argument that a woman’s right to abortion “is
absolute and that she is entitled to terminate her
pregnancy … for whatever reason she alone chooses.”
Roe v. Wade, 410 U.S. 113, 153 (1973) (emphasis
added). Roe stated: “With this we do not agree.” Id.
Nor should Casey be interpreted as implying, in
dicta, that all pre-viability restrictions on abortion are
“categorically unconstitutional.” App. 8a. One of
Casey’s central conclusions was that the strict
scrutiny that had applied to abortion restrictions
since Roe was too stringent, because it gave “too little
acknowledgement” to valid state interests in fetal life
and women’s health. 505 U.S. at 871. Casey’s
adoption of the undue-burden standard was designed
to relax the level of scrutiny on abortion restrictions,
not heighten it. Id. The “categorical” rule followed by
the Seventh and Eighth Circuits would subject
restrictions on pre-viability abortion to the only level
of scrutiny that is more exacting scrutiny than strict
scrutiny. This interpretation turns Casey on its head.
It also yields absurd results.
The rule of
“categorical” invalidity of restrictions on pre-viability
abortion has the perverse result of elevating the
“penumbral” right to abortion above enumerated
rights such as freedom of speech, freedom of religion,
and freedom from state-imposed racial segregation.
This Court has held that “even the fundamental rights

23
of the Bill of Rights are not absolute,” Kovacs v.
Cooper, 336 U.S. 77, 85 (1949), and it has held that
rights enumerated in the Bill of Rights may be
sometimes restricted by government policies that are
narrowly
tailored
to
advance
compelling
governmental interests. See, e.g., Bethune-Hill v.
Virginia State Bd. of Elections, 137 S. Ct. 788, 800–02
(2017); Fisher v. University of Texas, 136 S. Ct. 2198,
2208 (2016); Williams-Yulee v. Florida Bar, 135 S. Ct.
1656, 1666 (2015); Johnson v. California, 543 U.S.
499, 512–14 (2005); Chaplinksy v. New Hampshire,
315 U.S. 568, 571–73 (1942). Yet the Eighth Circuit’s
rule immunizes pre-viability abortion even from
regulations that satisfy strict scrutiny. It elevates the
“penumbral” right to pre-viability abortion above the
Constitution’s enumerated rights, which is “absurd.”
PPINK, 888 F.3d at 311 (Manion, J., concurring in the
judgment in part and dissenting in part).
Further, Casey is a logical misfit with an antidiscrimination provision like Missouri’s Down
Syndrome Provision. Casey’s viability framework
rested on its holding that the State’s interests in
protecting fetal life and promoting women’s health
become increasingly compelling as gestational age
increases. See 505 U.S. at 860, 870–71. But the
State’s anti-discrimination interest in preventing the
eugenic abortion of people with Down syndrome is
equally compelling at any gestational age. Children
with Down syndrome are eliminated with equal
permanence regardless of whether the fetus was
viable at the time of the abortion, and regardless of
the gestational age at which the abortion occurs.
Casey’s viability framework, therefore, has no logical
application to an anti-discrimination provision like
the Down Syndrome Provision.

24
2.

The Down Syndrome Provision
satisfies any level of scrutiny.

Missouri’s Down Syndrome Provision satisfies
strict scrutiny or any other level of scrutiny, because
it is precisely tailored to advance at least eight
compelling state interests.
First, Missouri’s law advances the State’s
compelling interest in protecting an entire class of
persons from being targeted for elimination solely
because of disability. As Justice Thomas noted in Box,
“this law and other laws like it promote a State’s
compelling interest in preventing abortion from
becoming a tool of modern-day eugenics.” Box, 139 S.
Ct. at 1783 (Thomas, J., concurring). In other
contexts, the Court has recognized that the States
have a “compelling interest in eliminating
discrimination” that justifies some restrictions on
rights. Bd. of Dirs. of Rotary Int’l v. Rotary Club of
Duarte, 481 U.S. 537, 549 (1987); Roberts v. U.S.
Jaycees, 468 U.S. 609, 623 (1984). Both Congress and
the States may prohibit the “moral and social wrong”
of invidious discrimination by private parties. Heart
of Atlanta Motel v. United States, 379 U.S. 241, 257
(1964); Bob Jones Univ. v. United States, 461 U.S. 574,
604 (1983); see also 42 U.S.C. § 12132; 29 U.S.C. § 794.
Here, the disability-based discrimination is the most
severe form imaginable—it targets people for
elimination based solely on an immutable
characteristic.
Second, Missouri’s law advances the State’s
compelling interest in eradicating historical animus
and bias against persons with Down syndrome. The
history of medicalized discrimination against persons
with Down syndrome is both recent and appalling,

25
and the Down Syndrome Provision serves to eradicate
the ongoing vestiges of that history. See supra
Statement of the Case, Part A. In enacting the Down
Syndrome Provision, Missouri’s legislature found that
“[r]emoving vestiges of any past bias or discrimination
against … unborn children, is an important task for
those in the legal, medical, social services, and human
services professions,” and that “the abortion of unborn
children with Down Syndrome … is a form of bias or
disability discrimination and victimizes the disabled
unborn child at his or her most vulnerable stage.”
App. 71a, 72a; Mo. Rev. Stat. § 188.038.1(1), (6).
Missouri has a compelling interest in eradicating the
medical establishment’s historic bias against persons
with Down syndrome, which persists in the practice of
eugenic abortion.
Third, Missouri’s law safeguards the integrity of
the medical profession by preventing doctors from
abandoning their traditional role as healers to become
the knowing killers of disabled populations. “There
can be no doubt the government ‘has an interest in
protecting the integrity and ethics of the medical
profession.’” Gonzales v. Carhart, 550 U.S. 124, 157
(2004) (quoting Washington v. Glucksberg, 521 U.S.
702, 731 (1997)). The Hippocratic tradition of
“complete separation between killing and curing” in
the medical profession is a “priceless possession which
we cannot afford to tarnish.” Margaret Mead, quoted
in Rita L. Marker et al., Euthanasia: A Historical
Overview, MD. J. CONTEMP. LEGAL ISSUES 2(2) 257–
298 (1991); C.A. App. 370. Permitting the medical
profession to become complicit in eliminating disabled
people undermines this “priceless possession.” Id.
Eugenic abortion “contradicts medicine’s historical
opposition to killing,” and as a result, “the profession

26
of medicine has been rapidly losing moral coherence
and becoming rudderless.”
C.A. App. 373.
Abandoning this role undermines public trust and
confidence in the medical profession. “As long as
discriminatory abortions continue, physicians cannot
be trusted to care for us when we too are weak and
frail and dependent to care for ourselves.” C.A. App.
373. Indeed, recent history illustrates the medical
profession’s susceptibility to corruption through the
medicalized killing of the disabled. See Michael A.
Grodin et al., The Nazi Physicians as Leaders in
Eugenics and “Euthanasia”: Lessons for Today, 108
AM. J. PUB. HEALTH 53–57 (Jan. 2018).
Fourth, Missouri’s law draws a clear boundary
against additional eugenic practices targeted at
disabled persons and others. This Court “has in the
past confirmed the validity of drawing boundaries to
prevent certain practices that extinguish life and are
close to actions that are condemned,” such as
infanticide and euthanasia. Gonzales, 550 U.S. at
158. Sex-selective abortion already occurs in the
United States under the euphemism “family
balancing.” See, e.g., Harry J. Lieman, M.D. &
Andrzej K. Breborowicz, M.D., Ph.D., Sex Selection for
Family Balancing, 16 AMA JOURNAL OF ETHICS 797
(Oct. 2014); see also Sujatha Jesudason & Anat
Shenker-Osorio, Sex Selection in America: Why It
Persists and How We Can Change It, THE ATLANTIC
(May 31, 2012). And prominent ethicists have sought
to justify not just abortion, but outright infanticide, of
disabled children. C.A. App. 371–72. “This attitude
has led to figures such as Peter Singer arguing that
some infants with congenital abnormalities might be
reasonably killed, and in the Netherlands to actually
killing those infants under the pretense that doing so

27
puts an end to ‘hopeless and unbearable suffering.’”
C.A. App. 372; see also A. Guibilini & Francesca
Minerva, After-Birth Abortion: Why Should the Baby
Live?, 39 J. OF MED. ETHICS 261–63 (2013) (arguing
that infanticide of children with Down syndrome,
among others, is justified).
Missouri’s Down
Syndrome Provision “help[s] to defend against a
further slide toward medicalized eugenics,” including
infanticide and euthanasia of the disabled. C.A. App.
372.
Fifth, Missouri’s Down Syndrome Provision
counters the stigma that eugenic abortion currently
imposes on living persons with Down syndrome and
other disabilities. As the Missouri General Assembly
found in enacting the law, “[e]liminating unborn
children with Down Syndrome raises grave concerns
for the lives of those who do live with disabilities. It
… fosters a false sense that disability is something
that could have been avoidable, and is likely to
increase the stigma associated with disability.” App.
72a, Mo. Rev. Stat. § 188.038.1(6).
“Permitting
women who otherwise want to bear a child to choose
abortion because the child has Down syndrome …
increases the ‘stigma associated with having a genetic
disorder.’” PPINK, 888 F.3d at 315 (Manion, J.,
concurring in the judgment) (quoting Peter A. Benn &
Audrey R. Chapman, Practical and Ethical
Considerations of Noninvasive Prenatal Diagnosis,
301 J. AM. MED. ASS’N 2154, 2155 (2009)). Missouri’s
law reinforces the positive, anti-stigmatic message of
people like Down syndrome advocate Frank Stephens:
“I AM A MAN WITH DOWN SYNDROME AND MY
LIFE IS WORTH LIVING.” Testimony of Frank
Stephens, Down Syndrome: Update on the State of the
Science & Potential for Discoveries Across Other Major

28
Diseases Before the H. Subcomm. on Labor, Health
and Human Servs., and Ed. Comm. on
Appropriations, at 2 (Oct. 25, 2017), at
https://bit.ly/33AYHPk.
Sixth, Missouri’s law helps ensure that the
existing Down syndrome community does not become
starved of resources for research and care for
individuals with Down syndrome. “Across the world,
a notion is being sold that maybe we don’t need to
continue to do research concerning Down syndrome.
Why? Because there are pre-natal screens that will
identify Down syndrome in the womb, and we can just
terminate those pregnancies.” Id. at 1. As abortion
decimates the Down syndrome community, resources
and support for existing individuals with Down
syndrome will inevitably dwindle away. See App. 72a,
Mo. Rev. Stat. § 188.038.6 (finding that Down
syndrome abortions “send[] a message of dwindling
support” for people with Down syndrome). “[S]ome
countries are now celebrating the ‘eradication’ of
Down syndrome through abortion,” and this
eradication “disincentivizes research that might help
[people with Down syndrome] in the future.” PPINK,
888 F.3d at 315 (Manion, J., concurring in the
judgment).
Seventh, Missouri’s law protects against the
devaluation of all human life inherent in any decision
to target a person for elimination based on an
immutable characteristic. Targeting the disabled for
elimination “further coarsen[s] society to the
humanity of not only newborns, but all vulnerable and
innocent human life, making it increasingly difficult
to protect such life.” Gonzales, 550 U.S. at 157
(quoting Congressional Findings ¶ (14)(N)).
Missouri’s law “expresses respect for the dignity of

29
human life.” Id. The epidemic of Down syndrome
abortions “perpetuates the odious view that some lives
are worth more than others.” PPINK, 888 F.3d at 315
(Manion, J., concurring in the judgment).
Eighth, Missouri’s law fosters the beauty, joy, and
diversity of society and protects society from the
incalculable loss that would occur if people with Down
syndrome were eliminated. As the stories of people
like Chris Nikic and countless others attest, people
with Down syndrome provide an irreplaceable beauty,
joy, and inspiration to their communities and our
society. They make us better people. “Human beings
‘of difference’ … have much to share with all of us
about what it means to be human.” Marsha Saxton,
Disability Rights and Selective Abortion, in ABORTION
WARS: A HALF CENTURY OF STRUGGLE: 1950 TO 2000
(1998). This is especially true of persons with Down
syndrome, as the experience of one St. Louis, Missouri
suburb illustrates. See Lauren Knight, On Her Way:
Grace’s Bus Stop, ST. LOUIS MAG. (Mar. 21, 2014). Our
society would be incalculably diminished if persons
with Down syndrome were eliminated—and we now
stand on the brink of that genocidal outcome.
3. Missouri’s law is narrowly tailored.
Missouri’s Down Syndrome Provision advances
these compelling interests in the narrowest possible
fashion. The law prohibits performing an abortion
only if the discriminatory purpose is the sole reason
for the abortion, and only if the abortion provider has
actual knowledge of that discriminatory purpose: “No
person shall perform or induce an abortion on a
woman if the person knows that the woman is seeking
the abortion solely because of a prenatal diagnosis,
test, or screening indicating Down Syndrome or the

30
potential of Down Syndrome in an unborn child.” App.
72a; Mo. Rev. Stat. § 188.038.2 (emphases added).
Thus, “it is hard to imagine legislation more
narrowly tailored to promote this interest than”
Missouri’s Down Syndrome Provision. PPINK, 888
F.3d at 316 (Manion, J., concurring). Missouri’s law
“only prohibit[s] abortions performed solely because of
the … disability of the unborn child. The doctor also
must know that the woman has sought the abortion
solely for that purpose.” Id. (emphasis in original).
“These are provisions that apply only to very specific
situations and carefully avoid targeting the purported
general right to pre-viability abortion.” Id. “They will
not affect the vast majority of women who choose to
have an abortion without considering the
characteristics of the child. Indeed, they will not even
affect women who consider the protected
characteristics along with other considerations.” Id.
“If it is at all possible to narrowly tailor abortion
regulations, [Missouri] has done so.” Id.
Because it is narrowly tailored to advance many
compelling interests Missouri’s law satisfies strict
scrutiny. A fortiori, it satisfies any less stringent form
of scrutiny, including Casey’s undue-burden test and
rational-basis scrutiny—the latter of which is the
standard that should apply here.
In sum, Missouri’s Down Syndrome Provision is
not “categorically” invalid under Casey, because Casey
said nothing about it. And the right to abort children
with Down syndrome is neither “deeply rooted in this
Nation’s history and tradition” nor “implicit in the
concept of ordered liberty.”
Washington v.
Glucksberg, 521 U.S. 702, 720–21 (1997) (quotations
omitted). On the contrary, our society has repudiated

31
the medicalized biases against disabled people that
terminated the lives of people Down syndrome for
decades and now fuel the epidemic of Down syndrome
abortions. Thus, Missouri’s law is subject to rationalbasis scrutiny, and it is valid so long as it reasonably
“furthers the legitimate interest of the Government,”
Gonzales, 550 U.S. at 146—which it plainly does.
In the alternative, if the Court does not grant
certiorari to review the validity of Missouri’s Down
Syndrome Provision, the Court should hold this
petition pending the resolution of Dobbs v. Jackson
Women’s Health Organization, No. 19-1392.
II. The Court Should Review the Validity of
Missouri’s Gestational Age Restrictions or
Hold That Question for Dobbs.
The Court should also grant certiorari to review
the validity of Missouri’s Gestational Age
Restrictions, which prohibit abortions performed after
eight, fourteen, eighteen, and twenty weeks of
gestation. App. 74a, 76a, 78a, 80a; Mo. Rev. Stat.
§ 188.056, 188.057, 188.058, 188.375.
In the
alternative, the Court should hold that question
pending the Court’s resolution of Dobbs v. Jackson
Women’s Health Organization, No. 19-1392, which
addresses the validity of Mississippi’s restriction on
abortions performed after 15 weeks’ gestational age.
Missouri’s petition presents a well-developed
record to consider the many important aspects of the
validity of such gestational age restrictions. It
includes expert testimony on the questions of (1) fetal
development at all gestational stages, C.A. App. 334–
43 (Aultman Decl. ¶¶ 10–83); (2) the capacity of
second-trimester fetuses to experience pain, C.A. App.
282–97 (Condic Decl. ¶¶ 8–48); (3) the excruciating

32
nature of second-trimester abortion procedures, C.A.
App. 348–49 (Aultman Decl. ¶¶ 105–07); (4) the
physical and psychological impact on women’s health
of abortions performed at later stages of gestation,
C.A. App. 399–403, 412–27 (Coleman Decl. ¶¶ 9–19,
45–74); (5) the impact of late-term abortion on the
integrity, public reputation, and ethics of the medical
profession, C.A. App. 370–73 (Curlin Decl. ¶¶ 43–53);
(6) the global consensus against the barbaric practice
of second-trimester abortion, including in Western
democracies, C.A. App. 484–86, 500–05 (Dyer Decl.
¶¶ 9–14 & tbl. 1); and (7) the very low rates at which
women in Missouri actually seek abortions at later
gestational ages, such as 18 weeks and 20 weeks, C.A.
App. 273–74 (Crumbliss Decl. ¶¶ 10–15).
The validity of Missouri’s Gestational Age
Restrictions presents an urgent, important question
that warrants this Court’s review. In the alternative,
the Court should hold this question pending the
resolution of Dobbs.
III. The “Penumbral” Right to Abortion
Recognized in Roe and Casey Should Be
Overruled.
In the alternative, if the right to abortion
recognized in Roe and Casey casts any doubt on
Missouri’s Down Syndrome Provision or its
Gestational Age Restrictions, then those cases should
be overruled. The Court should reject the longdiscredited notion that the U.S. Constitution contains
a “penumbral” right to terminate an unborn child’s
life by abortion.
From the outset of this case, Missouri has urged
that the right to abortion recognized in Roe and Casey
should be overruled. See Mo. C.A. Br. 37 n.7; C.A.

33
App. 235 (Mo. D.Ct. Br. 33 n.3). As Missouri’s
evidence demonstrates, Roe’s deficiencies included
demonstrable errors in the areas of science, C.A. App.
334–43, 346–48 (Aultman Decl. ¶¶ 10–83, 91–104);
jurisprudential history, C.A. App. 487–99 (Dyer Decl.
¶¶ 15–31); and ethics, C.A. App. 360–66 (Curlin Decl.
¶¶ 10–29). Further, Roe rested on a discredited
theory of constitutional interpretation that cited “the
penumbras of the Bill of Rights” and declined to root
its holding in any specific provision in the
Constitution’s text. Roe, 410 U.S. at 152–53. Casey’s
reaffirmation of the “central holding” in Roe focused
on the self-contradictory “viability” standard, which
many have observed “is clearly on a collision course
with itself.” City of Akron v. Akron Ctr. for Reprod.
Health, Inc., 462 U.S. 416, 458 (1983) (O’Connor, J.,
dissenting). Both cases, therefore, are mired in
jurisprudential confusion. It is wholly unsurprising
that Roe and Casey have engendered ongoing
constitutional and political controversy. See Casey,
505 U.S. at 995–96 (Scalia, J., concurring in the
judgment in part and dissenting in part).
If Roe and Casey dictate that Missouri cannot
prohibit the barbaric practice of dismembering paincapable fetuses in the second trimester, those cases
are absurd and should be overruled. Indeed, abortion
law has wandered far from its moorings on this point.
“Both Justice Blackmun and Justice Stevens have
thought ‘it obvious that the State’s interest in the
protection of an embryo ... increases progressively and
dramatically as the organism’s capacity to feel pain,
to experience pleasure, to survive, and to react to its
surroundings increases day by day.’”
Jackson
Women’s Health Org. v. Dobbs, 945 F.3d 265, 280 (5th
Cir. 2019) (Ho, J., concurring in the judgment)

34
(quoting Webster v. Reprod. Health Servs., 492 U.S.
490, 552 (1989) (Blackmun, J., concurring in part and
dissenting in part), and Thornburgh v. Am. Coll. of
Obstetricians & Gynecologists, 476 U.S. 747, 778
(1986) (Stevens, J., concurring)).
Missouri’s General Assembly made detailed
factual findings about the development of the unborn
child’s pain receptivity and capability to experience
pain. App. 61a–63a, Mo. Rev. Stat. § 188.026.2(17)–
(23). These findings rest on solid scientific evidence.
The neurophysical apparatus for experiencing pain
start developing at 14 weeks’ gestation, and they are
typically fully developed by 20 weeks’ gestation. C.A.
App. 282, 285–87 (Condic Decl. ¶¶ 7, 20–21). Outside
the abortion context, fetal anesthesia is recommended
for second-trimester fetuses, to address the concern
that the fetus experiences pain during the operation.
C.A. App. 294–96 (Condic Decl. ¶¶ 40–44). The
“predominant method” of abortion after 14 weeks’
gestation in Missouri—living dismemberment by
D&E—inflicts horrible pain on unborn children that
civilized persons would not inflict on reptiles. App.
64a–65a, Mo. Rev. Stat. § 188.026.2(29)(b) (citing Mo.
Rev. Stat. Chapters 273, 578); C.A. App. 680–81.
Likewise, the notion that Missouri cannot act to
prevent the entire class of people with Down
syndrome from being targeted for elimination solely
because of their immutable characteristics is absurd.
See supra Part I. If these are the logical consequences
of the right to abortion recognized in Roe and Casey,
then those cases should be cast onto the ash heap of
history.
“Roe was plainly wrong.” Casey, 505 U.S. at 983
(Scalia, J., concurring in the judgment in part and

35
dissenting in part). “Roe fanned into life an issue that
has inflamed our national politics in general, and has
obscured with its smoke the selection of Justices to
this Court in particular, ever since.” Id. at 995–96.
“[B]y foreclosing all democratic outlet for the deep
passions this issue arouses, by banishing the issue
from the political forum that gives all participants,
even the losers, the satisfaction of a fair hearing and
an honest fight, by continuing the imposition of a rigid
national rule instead of allowing for regional
differences, the Court merely prolongs and intensifies
the anguish.” Id. at 1002. The Court “should get out
of this area, where [it has] no right to be.” Id.
CONCLUSION
The petition for writ of certiorari should be
granted.

36
Respectfully submitted,
ERIC S. SCHMITT

Missouri Attorney General

D. JOHN SAUER
Solicitor General
Counsel of Record
JUSTIN D. SMITH
Deputy Attorney General
JEFF P. JOHNSON
JESUS A. OSETE
MICHAEL E. TALENT
Deputy Solicitors General
OFFICE OF THE MISSOURI
ATTORNEY GENERAL
Supreme Court Building
207 West High Street
Jefferson City, MO 65102
(573) 751-8870
John.Sauer@ago.mo.gov

APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
————
Nos. 19-2882, 19-3134
————
Reproductive Health Services of Planned Parenthood
of the St. Louis Region, Inc.,
et al
Plaintiffs – Appellees
v.
Governor Michael L. Parson, et al
Defendants – Appellants
————
Appeal from United States District Court
for the Western District of Missouri
————
Submitted: September 24, 2020
Filed: June 9, 2021
————
Before KELLY, WOLLMAN, and STRAS, Circuit
Judges.
————
KELLY, Circuit Judge.
Missouri Governor Michael L. Parson and various
other state officials (collectively, Missouri) appeal the

2a
district court’s1 grant of a preliminary injunction
enjoining the enforcement of several abortion-related
provisions of Missouri House Bill 126 (HB 126). We
affirm.
I.
Reproductive Health Services of Planned
Parenthood of the St. Louis Region and its Chief
Medical Officer Dr. Colleen P. McNicholas (together,
RHS) provide reproductive healthcare—including
pre-viability abortions—in St. Louis, Missouri. On
July 30, 2019, RHS filed suit on behalf of themselves,
as well as their patients, physicians, and staff,
challenging the constitutionality of several provisions
of HB 126. At issue here are the “Gestational Age
Provisions,” Mo. Rev. Stat. §§ 188.056–.058, .375, and
the “Down Syndrome Provision,” id. § 188.038, all of
which were scheduled to go into effect on August 28,
2019.
The first Gestational Age Provision provides, in
relevant part, that “no abortion shall be performed or
induced upon a woman at eight weeks gestational age
or later, except in cases of medical emergency.” Id.
§ 188.056.1. Sections 188.057, 188.058, and 188.375
are nearly identical to this first provision, except that
they apply to abortions performed at or after 14, 18,
and 20 weeks gestational age, respectively. See id.
§§ 188.057–.058, .375. A provider who violates any of
the Gestational Age Provisions faces criminal
prosecution
and
professional
discipline.
Id.
§§ 188.056–.058, .375.

1 The Honorable Howard F. Sachs, United States District
Judge for the Western District of Missouri.

3a
The Down Syndrome Provision prohibits abortions
if the provider “knows that the woman is seeking the
abortion solely because of a prenatal diagnosis, test,
or screening indicating Down [s]yndrome or the
potential of Down [s]yndrome in an unborn child.” Id.
§ 188.038.2.2 A provider who violates the Down
Syndrome Provision is subject to a number of civil
penalties, including professional discipline. Id.
§ 188.038.4.
RHS filed a motion for preliminary injunction,
asserting that these provisions would effectively
prohibit RHS from providing pre-viability abortion
care in Missouri. The district court determined that
both the Gestational Age Provisions and the Down
Syndrome Provision banned—rather than merely
regulated—pre-viability abortions and found that
RHS was “highly likely” to succeed on the merits as to
all these provisions.
The district court then found that the balance of
equities favored a preliminary injunction as to the
Gestational Age Provisions, but not the Down
Syndrome Provision. The court explained that, in
contrast to the Gestational Age Provisions, the record
did not show that enforcement of the Down Syndrome
Provision would actually harm anyone in the months

2 A different section of HB 126 requires “the physician who
performed or induced the abortion” to complete “[a]n individual
report for each abortion performed or induced upon a woman,”
which “shall include … a certification that the physician does not
have any knowledge that the woman sought the abortion solely
because of a prenatal diagnosis, test, or screening indicating
Down [s]yndrome or the potential of Down [s]yndrome in the
unborn child … .” Id. § 188.052.1.

4a
leading up to final judgment. Missouri appealed.3 In
the meantime, RHS filed a motion for reconsideration
(or in the alternative, a renewed motion for
preliminary injunction) of the district court’s denial of
injunctive relief as to the Down Syndrome Provision.
In support, RHS submitted additional evidence—
namely, a supplemental declaration from Dr.
McNicholas discussing, in part, three patients she
treated in the preceding 12 months who sought
abortions after receiving a fetal diagnosis of Down
syndrome.
The district court granted RHS’s motion for
reconsideration and modified its preliminary
injunction to include the Down Syndrome Provision.
Both orders granting preliminary injunctive relief are
now before this court. See Reprod. Health Servs. of
Planned Parenthood of St. Louis Region, Inc. v.
Parson (RHS I), 389 F. Supp. 3d 631 (W.D. Mo. 2019);
Reprod. Health Servs. of Planned Parenthood of St.
Louis Region, Inc. v. Parson (RHS II), 408 F. Supp. 3d
1049 (W.D. Mo. 2019).

3 Missouri also sought a partial stay of the district court’s
order—insofar as the order temporarily protects abortions
performed at 20 weeks gestational age or later—pending appeal.
The district court denied Missouri’s request. Finding that the
requested partial stay would effectively bar about two abortions
per week pending litigation, the district court determined that it
would “gravely affect[] the lives and family situation of a few
pregnant women, who would be choosing abortions during the
last available week or two before viability.” Reprod. Health Servs.
of Planned Parenthood of St. Louis Region, Inc. v. Parson, 2019
WL 4467658, at *2 (W.D. Mo. Sept. 18, 2019). The district court’s
order denying Missouri a partial stay is not on appeal here.

5a
II.
A.
As a preliminary matter, Missouri argues that
RHS lacks both individual and third-party standing.
To establish standing under Article III of the U.S.
Constitution, a plaintiff must show “(1) injury in fact,
(2) a causal connection between that injury and the
challenged conduct, and (3) the likelihood that a
favorable decision by the court will redress the alleged
injury.” Young Am. Corp. v. Affiliated Comput. Servs.
(ACS), Inc., 424 F.3d 840, 843 (8th Cir. 2005) (citing
Lujan v. Defs. of Wildlife, 504 U.S. 555, 560–61
(1992)). But as RHS points out, “[e]ven in cases in
which the plaintiff sues to enforce another person’s
rights, the injury-in-fact requirement turns on the
plaintiff’s personal stake in the controversy.” This is
because Article III requires plaintiffs to have a
“sufficiently concrete interest in the outcome of [the]
suit to make it a case or controversy.” Sec’y of State of
Md. v. Joseph H. Munson Co., 467 U.S. 947, 955 n.5
(1984) (alteration in original) (quoting Singleton v.
Wulff, 428 U.S. 106, 112 (1976)).
Generally,
physicians have Article III standing to challenge
abortion laws that subject them to governmental
sanctions. See, e.g., Planned Parenthood of Se. Pa. v.
Casey, 505 U.S. 833, 903–04 (1992) (plurality opinion);
Doe v. Bolton, 410 U.S. 179, 188 (1973).
Here, the Gestational Age Provisions and the
Down Syndrome Provision directly target physician
conduct. Because these provisions put physicians at
risk of civil and criminal sanctions, RHS has the
requisite personal stake to establish individual
standing under Article III. Moreover, RHS also has
standing to sue on behalf of its patients. See June

6a
Med. Servs. L.L.C. v. Russo, 140 S. Ct. 2103, 2118–19
(2020) (plurality opinion). The Supreme Court has
“generally permitted plaintiffs to assert third-party
rights in cases where the enforcement of the
challenged restriction against the litigant would
result indirectly in the violation of third parties’
rights.” Id. (cleaned up). This is in part because the
“‘threatened imposition of governmental sanctions’ for
noncompliance … assures us that the plaintiffs have
every incentive to ‘resist efforts at restricting their
operations by acting as advocates of the rights of third
parties who seek access to their market or function.’”
Id. at 2119 (quoting Craig v. Boren, 429 U.S. 190, 195
(1976)); see also Singleton, 428 U.S. at 117 (explaining
that abortion providers can also show third-party
standing based on the “closeness of [their]
relationship” with their patients, as well as on the risk
of “imminent mootness” that might pose an obstacle
to pregnant patients bringing their own claims).
Indeed, the Supreme Court has recently reminded us
that it has “long permitted abortion providers to
invoke the rights of their actual or potential patients
in challenges to abortion-related regulations.” June
Med. Servs., 140 S. Ct. at 2118 (plurality opinion); see
Planned Parenthood of Minn., Inc. v. Citizens for
Cmty. Action, 558 F.2d 861, 865 n.3 (8th Cir. 1977).4
RHS has standing, and we proceed to the merits.
4 Missouri’s argument that RHS may not file a § 1983 action is
premised on its position that RHS merely asserts the rights of
third parties. Given our ruling on standing, this argument also
fails. See Ayotte v. Planned Parenthood of N. New England, 546
U.S. 320, 324–31 (2006) (evaluating preliminary injunction of an
abortion statute on the merits in lawsuit filed under 42 U.S.C.
§ 1983); Pediatric Specialty Care, Inc. v. Ark. Dep’t of Hum.
Servs., 293 F.3d 472, 478 (8th Cir. 2002) (affirming district
court’s holding that the physician plaintiffs “properly asserted a

7a
III.
In deciding whether to issue a preliminary
injunction, a district court considers “(1) the threat of
irreparable harm to the moving party, (2) the balance
between this harm and the injury that granting the
injunction will inflict on the non-moving party, (3) the
probability that the moving party will succeed on the
merits, and (4) the public interest.” Planned
Parenthood of Ark. & E. Okla. v. Jegley, 864 F.3d 953,
957 (8th Cir. 2017) (citing Dataphase Sys., Inc. v. C L
Sys., Inc., 640 F.2d 109, 114 (8th Cir. 1981) (en banc)).
Here, the district court properly required RHS to
“make a more rigorous showing that it is likely to
prevail on the merits,” a standard required “[w]here a
preliminary injunction is sought to enjoin the
implementation of a duly enacted state statute.” Id. at
957–58 (cleaned up).
We review the district court’s “ultimate decision to
grant an injunction … for abuse of discretion, with
factual findings examined for clear error and legal
conclusions considered de novo.” Brakebill v. Jaeger,
932 F.3d 671, 676 (8th Cir. 2019). An abuse of
discretion occurs “when the district court relies on
clearly erroneous factual findings or an error of law.”
Dixon v. City of St. Louis, 950 F.3d 1052, 1055 (8th
Cir. 2020). “An abuse of discretion also occurs when a
relevant factor that should have been given
significant weight is not considered; when an
federal right enforceable in a § 1983 action,” including on behalf
of their patients); Planned Parenthood of Wis., Inc. v. Van Hollen,
738 F.3d 786, 794–95 (7th Cir. 2013) (affirming availability of
third-party standing based on the unquestionable “justiciability”
of precedent cases “filed pursuant to section 1983” and “in which
doctors and abortion clinics were found to have had standing”).

8a
irrelevant or improper factor is considered and given
significant weight; and when all proper factors, and
no improper ones, are considered, but the court, in
weighing those factors, commits a clear error of
judgment.” Id. (cleaned up).
A.
In Casey, the Supreme Court reaffirmed the right
“to choose to have an abortion before viability and to
obtain it without undue interference from the State.”
505 U.S. at 846. “Before viability, the State’s interests
are not strong enough to support a prohibition of
abortion or the imposition of a substantial obstacle to
the woman’s effective right to elect the procedure.” Id.
Missouri does not dispute that fetuses are considered
nonviable at or before 20 weeks gestational age. Thus,
the Gestational Age Provisions prohibiting abortions
performed at or after 8, 14, 18, and 20 weeks
gestational age5 apply to pre-viability abortions.
Nevertheless,
Missouri
argues
that
the
Gestational Age Provisions do not ban pre-viability
abortions, but merely regulate them. This distinction
is significant. Bans on pre-viability abortions are
categorically unconstitutional. See id. at 879; Little
Rock Fam. Plan. Servs. v. Rutledge, 984 F.3d 682, 687
(8th Cir. 2021). A restriction, on the other hand, is
permissible so long as it does not impose “a
substantial obstacle” to the right to an abortion. See
Casey, 505 U.S. at 877. According to Missouri, because
the Provisions still permit pre-viability abortions
before 8 weeks gestational age, they do not constitute
categorical bans.
5 This is measured as 8, 14, 18, and 20 weeks from the first day
of a patient’s last menstrual cycle.

9a
We have already rejected a similar argument in a
nearly identical statute. In Edwards v. Beck, the
Arkansas statute at issue prohibited doctors from
performing abortions at 12 weeks’ gestation (or later)
where the fetus has a detectable heartbeat. 786 F.3d
1113, 1115–16 (8th Cir. 2015) (per curiam), cert.
denied, 577 U.S. 1102 (2016). It was undisputed that
“a fetus is generally not viable under 24 weeks’
gestation, is never viable at 12 weeks, and, in all
normally-progressing pregnancies, has a detectable
heartbeat by 12 weeks.” Id. at 1116. Like Missouri
does now, the State of Arkansas “trie[d] to frame the
law as a regulation, not a ban, on pre-viability
abortions because they are available during the first
12 weeks (and thereafter if within the exceptions).” Id.
at 1117. But because the Arkansas law “prohibit[ed]
women from making the ultimate decision to
terminate a pregnancy at a point before viability,” it
constituted a ban, not a regulation. Id.; see also MKB
Mgmt. Corp. v. Stenehjem, 795 F.3d 768, 772–73 (8th
Cir. 2015) (invalidating a North Dakota fetalheartbeat restriction for the same reasons articulated
in Edwards), cert. denied, 136 S. Ct. 981 (2016).
Relying on Casey, however, Missouri nonetheless
contends that the Supreme Court has previously
“upheld prohibitions on certain classes of pre-viability
abortions.” This argument lacks merit. Casey upheld,
in part, requirements for informed consent and for a
24-hour waiting period—it did not uphold a ban on all
abortions performed at certain points of a pre-viability
pregnancy. 505 U.S. at 881–87. Under those
requirements, patients could still obtain an abortion
at any point before fetal viability so long as they
received certain information 24 hours before
undergoing the procedure. See id. at 881. Here, by

10a
contrast, there is nothing an individual in Missouri
could lawfully do to obtain an abortion at or after the
applicable gestational age cut-off.6 See id. at 894–95
(explaining that an abortion statute “must be judged
by reference to those for whom it is an actual rather
than an irrelevant restriction”). These provisions do
not merely have “the incidental effect of making it
more difficult or more expensive to procure an
abortion” before viability. Gonzales v. Carhart, 550
U.S. 124, 158 (2007) (quoting Casey, 505 U.S. at 874);
see also id. at 157–58 (reaffirming Casey’s distinction
between laws that merely make it more difficult or
expensive to get an abortion and those designed to
impermissibly “strike at the right itself” (quoting
Casey, 505 U.S. at 874)). Instead, the Gestational Age
Provisions are bans, and we agree with the district
court that RHS is likely to succeed on the merits of
this claim.
B.
Missouri also characterizes the Down Syndrome
Provision as a regulation of pre-viability abortions.
But a person who wants a pre-viability abortion
“solely because of a prenatal diagnosis, test, or
screening indicating Down [s]yndrome or the
potential of Down [s]yndrome” in the fetus is
6 Missouri makes the same argument with respect to Gonzales
v. Carhart, 550 U.S. 124 (2007). As in Casey, the statute at issue
in Gonzales did not ban pre- viability abortions; rather, it
outlawed one of several medical techniques used for performing
abortions. Gonzales, 550 U.S. at 164–65. The Court concluded
that “[t]he Act [was] not invalid on its face where there [was]
uncertainty over whether the barred procedure is ever necessary
to preserve a woman’s health, given the availability of other
abortion procedures that are considered to be safe alternatives.”
Id. at 166–67 (emphasis added).

11a
completely prohibited from getting one. Mo. Rev. Stat.
§ 188.038.2. Unlike a regulation, the Down Syndrome
Provision does not set a condition that—upon
compliance—makes the performance of a pre-viability
abortion lawful, thus preserving the constitutional
right to elect the procedure. Rather, it bans access to
an abortion entirely.
Missouri contends that the word “solely” in the
statute performs a regulatory function because it
permits pre-viability abortions when the Down
syndrome diagnosis is only part of the patient’s
motivation. But it is well-established that “[w]hether
or not ‘exceptions are made for particular
circumstances, a State may not prohibit any woman
from making the ultimate decision to terminate her
pregnancy before viability.’” Edwards, 786 F.3d at
1117 (quoting Casey, 505 U.S. at 879); see also
Stenehjem, 795 F.3d at 772 (explaining that
regulations are permissible when they “do no more
than create a structural mechanism by which the
State … may express profound respect for the life of
the unborn” (quoting Gonzales, 550 U.S. at 146)).
Regulations on pre-viability abortions are permissible
provided they do not constitute an undue burden, see,
e.g., Casey, 505 U.S. at 887–94 (rejecting a spousal
notification regulation that posed an undue burden),
but bans on pre-viability abortions are not, see
Edwards, 786 F.3d at 1117. Here, the Down
Syndrome Provision would prevent certain patients
from getting a pre-viability abortion at all. That is a
ban, not a regulation.7 We agree that RHS is likely to
7 Missouri insists that the Supreme Court, by rejecting the
argument in Roe that a woman has an absolute right “to
terminate her pregnancy at whatever time, in whatever way, and
for whatever reason she alone chooses,” Roe v. Wade, 410 U.S.

12a
succeed on the merits of its challenge to the Down
Syndrome Provision as well.
C.
We turn now to the remaining Dataphase factors.
See Planned Parenthood Minn., N.D., S.D. v. Rounds,
530 F.3d 724, 732 (8th Cir. 2008) (en banc). “At base,
the question is whether the balance of equities so
favors the movant that justice requires the court to
intervene to preserve the status quo until the merits
are determined.” Dataphase, 640 F.2d at 113.
1.
Missouri argues that the threat of irreparable
harm from allowing the Gestational Age Provisions to
go into effect is minimal because “the vast majority of
women already obtain abortions prior to the later
benchmarks, and many of the remaining women
undoubtedly could do so by seeking abortions earlier
in pregnancy.” The accuracy of this claim aside,
Missouri’s focus on the number of women unaffected
by the Gestational Age Provisions is misplaced. The
irreparable harm analysis turns on the nature of the
injury likely to result from the challenged action, not
the number of people who would be injured. See Hinz
v. Neuroscience, Inc., 538 F.3d 979, 986 (8th Cir. 2008)
(defining an irreparable injury as an injury “of such a
nature that money damages alone do not provide
adequate relief”); see also Kroupa v. Nielsen, 731 F.3d
113, 153 (1973), left open the possibility that states may ban previability abortions sought for prohibited reasons. This argument
is unavailing if only because it ignores “Roe’s central holding,”
reaffirmed in Casey, “that viability marks the earliest point at
which the State’s interest in fetal life is constitutionally adequate
to justify a legislative ban on nontherapeutic abortions.” 505 U.S.
at 860.

13a
813, 820–21 (8th Cir. 2013) (finding the threat of
reputational harm to a single individual to be
irreparable). Missouri does not dispute that the 20week Gestational Age Provision would prohibit about
100 abortions each year in Missouri, or that the 8week Provision would prohibit approximately half of
all reported abortions in the state—and for purposes
of the irreparable-harm inquiry, the prohibition of
even a single pre-viability abortion would suffice. The
district court concluded that this was “a significant
interference with plaintiffs’ service and the rights of
its prospective patients,” RHS I, 389 F. Supp. 3d at
638, and Missouri offers nothing to counter that
conclusion.
The threat of irreparable harm posed by the Down
Syndrome Provision is a closer call, but nevertheless
weighs in favor of RHS. After receiving a
supplemental declaration from Dr. McNicholas, the
district court found that “at least a small number of
women” would be affected by this provision. On
appeal, Missouri argues that RHS failed to show that
any patients seek abortions based “solely” on prenatal
diagnoses, or potential diagnoses, of Down syndrome.8
But RHS is not required to prove with certainty the
threat of irreparable harm. The standard merely
requires “plaintiffs seeking preliminary relief to
demonstrate that irreparable injury is likely in the
absence of an injunction.” Winter v. Nat. Res. Def.
Council, Inc., 555 U.S. 7, 22 (2008). Missouri has
offered no evidence to rebut the district court’s finding
that “the facts reviewed show a very high likelihood”
8 This argument is curious, as it suggests that the Missouri
legislature passed a statute to ban abortions for a category of
patients that may not, or at least may not currently, exist.

14a
of a “Down [s]yndrome motivated abortion request
during litigation.” RHS II, 408 F. Supp. 3d at 1052.
Moreover, Dr. McNicholas said that if the Down
Syndrome Provision takes effect, (1) she and other
physicians in Missouri would “face unjustifiable risk
in providing abortion care to patients if [they] know
that a patient has had” a prenatal diagnosis, or a
potential diagnosis, of Down [s]yndrome, and (2) as a
result, “[i]f a patient with a Down [s]yndrome
diagnosis seeks services … [they would] be forced to
turn her away and advise her that she cannot get this
care in Missouri.” The district court did not clearly err
in finding that “the most likely scenario, from
plaintiffs’ filings, would be the provider’s declining a
requested abortion, in terrorem.” Id. at 1053.9 And
9 The dissent characterizes RHS’s claimed harm as a selfinflicted response to a “speculative risk of sanctions” and
disputes the district court’s finding of irreparable harm on that
basis. But the district court did not rely on a “speculative risk.”
Rather, after hearing argument and considering the evidence,
the district court made a factual finding that the Down
Syndrome Provision would likely be enforced against RHS even
where the medical provider knows only of “a Down syndrome
diagnosis (or even a strong suspicion based on testing)”—that is,
even absent certain knowledge that the patient is seeking an
abortion “solely” because of Down Syndrome. RHS II, 408 F.
Supp. 3d at 1052; cf. Alexis Bailly Vineyard, Inc. v. Harrington,
931 F.3d 774, 778 (8th Cir. 2019) (conducting injury-in-fact
inquiry for purposes of standing and distinguishing Clapper v.
Amnesty Int’l USA, 568 U.S. 398 (2013), from cases where the
plaintiffs “are themselves the objects of a challenged statute” and
thus, “must merely allege an intention to engage in a course of
conduct arguably affected with a constitutional interest, but
proscribed by a statute, [where] there exists a credible threat of
prosecution thereunder.” (cleaned up)). RHS’s inability to
provide pre- viability abortions to patients with a fetal diagnosis
(or suspected diagnosis) of Down Syndrome due to a real threat
of prosecution results in a likelihood of irreparable harm to those

15a
while the Down Syndrome Provision might impact
fewer people than the Gestational Age Provisions, the
nature of the harm—the inability to obtain an
abortion before fetal viability—is at least equally
significant. Thus, the district court concluded that
absent a preliminary injunction, RHS would be
unable to provide pre-viability abortions both to the
patients who would otherwise obtain one “solely” on
the basis of a fetal diagnosis of Down [s]yndrome, and
to the patients for whom the diagnosis is only part of
the motivation, causing both types of patients to lose
“the Constitutional right to which [they are] currently
entitled.” Id. Because the district court’s carefully
considered “finding … is plausible in light of the full
record,” it “must govern.” June Med. Servs., 140 S. Ct.
at 2128 (plurality opinion) (cleaned up) (quoting
Cooper v. Harris, 137 S. Ct. 1455, 1465 (2017)).
2.
The remaining two factors—the balance of
hardships and the public interest—also weigh in favor
of RHS as to the Down Syndrome Provision and the
Gestational Age Provisions.
Missouri contends that “the harms inflicted on the
State and innocent third parties from enjoining the
enforcement of HB 126 would be extremely severe”
because an injunction would prevent the State from
advancing “compelling state interests,” including “the
loss of innocent human life.” As the district court
appropriately acknowledged, “federal courts should
generally be very cautious before delaying the effect of
patients. Though the dissent may “have weighed the evidence
differently,” that is not enough to make the district court’s
finding clearly erroneous. Anderson v. City of Bessemer City, 470
U.S. 564, 574 (1985).

16a
State laws.” RHS I, 389 F. Supp. 3d at 637.
Nonetheless, Missouri has failed to demonstrate that
its policy priorities outweigh (1) the public interest in
access to pre-viability abortions, or (2) the significant
interference with RHS’s business and the harm to
pregnant individuals who might seek a pre-viability
abortion before final judgment in this case. See RHS
II, 408 F. Supp. 3d at 1052 (“[T]he State Defendants
have not and are unlikely to belittle the significance
of even a few abortions during litigation ”); cf. Brady
v. Nat’l Football League, 640 F.3d 785, 792–94 (8th
Cir. 2011) (granting stay of district’s order pending
appeal even where both parties were “likely to suffer
some degree of irreparable harm” because the movant
made a “strong showing that it is likely to succeed on
the merits”); Little Rock Fam. Plan. Servs. v.
Rutledge, 397 F. Supp. 3d 1213, 1322 (E.D. Ark. 2019)
(finding that enjoining abortion regulations would not
irreparably harm State because “the State has no
interest in enforcing laws that are unconstitutional”
(citing Hisp. Int. Coal. of Ala. v. Governor of Ala., 691
F.3d 1236, 1249 (11th Cir. 2012))), aff’d in relevant
part, 984 F.3d 682 (8th Cir. 2021).
For these reasons, we find no error in the district
court’s conclusion that the balance of the equities
favors injunctive relief.
IV.
Because the district court did not abuse its
discretion in granting preliminary injunctions
enjoining enforcement of the Gestational Age
Provisions and the Down Syndrome Provision, we
affirm.

17a
STRAS, Circuit Judge, concurring in the judgment
in part and dissenting in part.
A preliminary injunction is hard to get, all the
more so when the target is a democratically enacted
state law. See Planned Parenthood Minn., N.D., S.D.
v. Rounds, 530 F.3d 724, 732–33 (8th Cir. 2008) (en
banc). The court makes it easy, however, by relaxing
the rules to let Reproductive Health Services10 have
one, despite its failure to show a “threat of irreparable
harm” from Missouri’s Down Syndrome Provision.
Dataphase Sys., Inc. v. C L Sys., Inc., 640 F.2d 109,
114 (8th Cir. 1981) (en banc). I would apply the usual
rules and vacate the injunction.
I.
Under Missouri’s Down Syndrome Provision, no
one may perform an abortion with “know[ledge] that
the woman is seeking [one] solely because of a prenatal
diagnosis, test, or screening indicating Down
Syndrome or the potential of Down Syndrome in an
unborn child.” Mo. Rev. Stat. § 188.038.2 (emphasis
added). Even before the law took effect, Reproductive
Health Services challenged it and requested a
preliminary injunction to prevent state officials from
enforcing it against anyone. See Rodgers v. Bryant,
942 F.3d 451, 460–65 (8th Cir. 2019) (Stras, J.,
concurring in part and dissenting in part)
(highlighting
the
problems
with
universal
injunctions).
“Reproductive Health Services” refers collectively to the
plaintiffs in this case: Reproductive Health Services of Planned
Parenthood of the St. Louis Region, Inc., which claims to be “the
only generally available source of abortion care in Missouri,” and
Dr. Colleen P. McNicholas, the facility’s chief medical officer and
an abortion provider.
10

18a
The district court initially refused to grant one
because Reproductive Health Services had not shown
that “the inability to schedule ‘Down [S]yndrome
abortions’ would be likely to interfere with the
abortion rights of real-life women.” In plain English,
the court was saying that there was no evidence that
the law would create any real-world harm, or even a
threat of it. It left the door open, however, if the clinic
could come up with something more.
The more came in the form of a supplemental
declaration by the clinic’s chief medical officer, Dr.
Colleen McNicholas, who said:
[W]ithin approximately the last 12 months, I do
specifically recall that three of the patients that I
treated in Missouri had received a fetal diagnosis
of Down [S]yndrome.
…
I also recall that I provided abortion care to
numerous other patients that had received a fetal
diagnosis—I would estimate approximately one to
four cases per week over the past year—but cannot
recall whether that diagnosis was Down
[S]yndrome or another genetic or structural
anomaly, if I had that information at the time.
Because Down [S]yndrome is the most common
fetal aneuploidy, it is likely that some of these
other instances did involve such a diagnosis.
(Footnote omitted). This declaration was enough for
the district court to have a change of heart. Combining
the
declaration
with
its
own
“[c]ommon
understanding,” and taking “judicial notice” of the fact
that a woman would “often” receive “a Down
[S]yndrome diagnosis” with “dismay,” the court

19a
“suppose[d] that” some of these women requested an
abortion because of it. If so, the court said, others
likely would too, and the law would threaten the
ability of real-life women to get one, creating the
threat of irreparable harm that was missing before.
Whether more is required to grant a preliminary
injunction is the question posed to us today. See
Rounds, 530 F.3d at 732 n.5.
II.
“A preliminary injunction is an extraordinary
remedy ….” Watkins Inc. v. Lewis, 346 F.3d 841, 844
(8th Cir. 2003). In deciding whether one is
appropriate, there are four factors to consider: “(1) the
likelihood of the movant’s success on the merits; (2)
the threat of irreparable harm to the movant in the
absence of relief; (3) the balance between that harm
and the harm that the relief would cause to the other
litigants; and (4) the public interest.” Id. The problem
for Reproductive Health Services is that it never
established a “threat of irreparable harm. … an
independently sufficient ground upon which to deny a
preliminary injunction.” Id.
A threat of irreparable harm is exactly what it
sounds like: “a party must show that the harm is
certain and great and of such imminence that there is
a clear and present need for equitable relief.”
Roudachevski v. All-Am. Care Ctrs., Inc., 648 F.3d
701, 706 (8th Cir. 2011) (quotation marks omitted).
This is no small task. At a minimum, Reproductive
Health Services had to show that the law was likely
to prevent a woman from getting an abortion she
otherwise would have lawfully received. See Winter
v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 22 (2008)
(explaining that “likely” harm is enough).

20a
The Down Syndrome Provision itself tells us how
the harm would have to occur. See Mo. Rev. Stat.
§ 188.038.2. It is not enough for a woman to receive a
prenatal diagnosis, test, or screening of Down
Syndrome (or the potential for it) in an unborn child
and then seek an abortion. Rather, for the statute to
apply, (1) the abortion must be “solely because of” it;
and (2) the provider must actually “know[]” of that
fact. Id. Even when providers are aware of a positive
Down Syndrome diagnosis, for example, nothing
prevents them from performing an abortion if they
know nothing more. Nor is there any restriction when
providers know that the diagnosis is one reason for the
abortion but remain in the dark about whether there
are others.
Contrast these requirements with what Dr.
McNicholas said in her declaration. According to her,
she treated three women who “had received a fetal
diagnosis of Down [S]yndrome” over “the last 12
months,” and it was “likely” that there had been
others too. The declaration is conspicuous for what it
does not say. Nowhere does it mention whether any of
these women sought an abortion “solely because of”
their prenatal diagnoses, much less whether she knew
it at the time. Id. Both are required for Missouri’s
Down Syndrome Provision to apply. See id.
A.
Causation poses the biggest hurdle for
Reproductive Health Services. No matter how many
of Dr. McNicholas’s patients have received a positive
Down Syndrome diagnosis—three, three hundred, or
three thousand—nothing in her declaration
establishes that any of them sought an abortion solely
because of it. See id.

21a
The burden of establishing entitlement to a
preliminary injunction always rests with the party
seeking one. See Watkins Inc., 346 F.3d at 844. There
may well be women in Missouri who terminate their
pregnancies solely because of a positive Down
Syndrome diagnosis, test, or screening, but the
problem is that Reproductive Health Services has not
identified any of them. It instead asks us to fill in the
gaps—basically, guess—that there are women out
there who do so, despite the variety of “health, family,
financial, [and] other personal reasons” that can
factor into a decision to terminate a pregnancy.
Preterm-Cleveland v. McCloud, 994 F.3d 512, 526 (6th
Cir. 2021) (en banc) (plurality opinion). Courts are not
supposed to grant injunctions based on guesses.
The district court decided to guess anyway. When
Dr. McNicholas failed to say whether any of the
women she treated had sought an abortion solely
because of a positive diagnosis, the court used its
imagination:
[c]ommon understanding and judicial notice would
conclude that a Down [S]yndrome diagnosis (or
even a strong suspicion based on testing) would
often be received with dismay by a pregnant
woman and any family members. If an abortion
were sought thereafter, most of us, including an
abortion provider, would suppose that the
diagnosis was the principal cause of the request,
and that a jury or licensing agency would have
little trouble with the “sole cause” requirement for
a violation. As the Chief Justice recently observed,
quoting Judge Friendly, “we are not required to
exhibit a naiveté from which ordinary citizens are
free.” Dept. of Commerce v. New York, 139 S. Ct.
2551, 2575 (2019).

22a
(Emphasis added)
These “[c]ommon[ly] underst[ood]” facts are ones
that Dr. McNicholas, who performs hundreds of
abortions a year, apparently could not say herself. I
find it hard to believe that the district court knows
more about the motivations of her patients than she
does. And this “[c]ommon understanding” is
remarkable for another reason: it assumes that
children with Down Syndrome are unwanted. The
irony is not lost on me, for this is the very
discrimination that Missouri seeks to prevent.
Nor does “judicial notice” advance the ball. It
applies to obvious facts—those that are “capable of …
instant and unquestionable demonstration.” United
States v. Gould, 536 F.2d 216, 219 (8th Cir. 1976)
(quoting 9 John Henry Wigmore, Evidence § 2571, at
548 (1940)). A court may well be able to take judicial
notice of a straightforward fact like the total number
of women who live in Missouri, but not the reasons
why some of them have abortions. It is neither obvious
nor “unquestionable,” id., despite what the district
court may have believed, that a woman would receive
a positive Down Syndrome diagnosis “with dismay”
and then abort her unborn child solely because of it.
These are facts that must be proven, not “suppose[d].”
B.
Missouri’s Down Syndrome Provision requires
more than just an ultra-strict causal link. The
provider actually has to know that the link is present.
See Mo. Rev. Stat. § 188.038.2. Absent knowledge that
a Down Syndrome diagnosis is the sole reason for an
abortion, the statute does not apply. See id.

23a
Dr. McNicholas all but admits in her declaration
that she has no idea how many women, if any, seek an
abortion solely for that reason. See id. Consider her
words carefully. In addition to never identifying any
women who sought abortions “solely because of” a
Down Syndrome diagnosis, she goes on to say that
“there is generally no medical need for [her], or any
other physician providing abortion care at [the clinic,]
to know a patient’s reason for seeking an abortion or
to distinguish between one particular fetal diagnosis
or another in order to provide compassionate, safe
abortion care.” If there is no medical reason to ask,
and no evidence that the reason for seeking an
abortion is routinely volunteered, then the statute
itself cannot create the “threat of irreparable harm.”
Dataphase Sys., Inc., 640 F.2d at 114.
Rather, the harm comes from Dr. McNicholas
herself, or at least her view of the law. She claims
that, if she learns of any fetal anomaly, then she will
have to ask whether it is Down Syndrome, just
because of the “legal risk” involved. If a woman then
admits that her unborn child has a positive Down
Syndrome diagnosis, Dr. McNicholas will “turn her
away and advise her that she cannot get this care in
Missouri.” This statute-made-me-do-it theory would
make sense if the statute made her do it. But it does
not.
Nothing in the Down Syndrome Provision requires
Dr. McNicholas to ask about fetal diagnoses or
“turn … away” women who reveal one. See Mo. Rev.
Stat. § 188.038.2. And with no medical reason to
inquire, it is her choice to ask the question. Then, if a
woman answers by saying she has received a positive
Down Syndrome diagnosis, it is again Dr.
McNicholas’s choice not to perform the abortion,

24a
assuming the woman has not told her that the
diagnosis is the sole reason she is seeking it. We
cannot enjoin a law based on what someone thinks it
says, rather than what it actually says. Cf. Clapper v.
Amnesty Int’l USA, 568 U.S. 398, 416 (2013)
(explaining that plaintiffs “cannot manufacture
standing merely by inflicting harm on themselves
based on their fears of hypothetical future harm that
is not certainly impending”).
Perhaps what Dr. McNicholas is really trying to
say is that the statute will “chill” her practice, based
on the potential legal risk involved, even if she cannot
identify anyone who would be directly affected by it.
Cf. Republican Party of Minn., Third Cong. Dist. v.
Klobuchar, 381 F.3d 785, 791–93 (8th Cir. 2004). The
court seems persuaded:
The district court did not clearly err in finding that
“the most likely scenario, from plaintiffs’ filings,
would be the provider’s declining a requested
abortion, in terrorem.” … Thus, the district court
concluded that absent a preliminary injunction,
[the plaintiffs] would be unable to provide previability abortions both to the patients who would
otherwise obtain one “solely” on the basis of a fetal
diagnosis of Down [S]yndrome, and to the patients
for whom the diagnosis is only part of the
motivation, causing both types of patients to lose
“the Constitutional right to which [they are]
currently entitled.”
Ante at 12–13 (emphasis added) (second and third
brackets in original).
Even if this reasoning sounds plausible, there are
obvious problems with it. A chilling effect can only
support a claim if a statute is vague or overbroad, and

25a
even then, only when the challenge is brought under
the First Amendment. See 1 Rodney A. Smolla,
Smolla and Nimmer on Freedom of Speech §§ 6:4, 6:14
(2021); see also Ashcroft v. Free Speech Coal., 535 U.S.
234, 255 (2002) (overbreadth); Reno v. Am. Civ.
Liberties Union, 521 U.S. 844, 871–74 (1997)
(vagueness). It is tied to an exceptionally narrow
doctrine that allows a party to establish an injury
through the “deterrent effect” a law has on protected
expression, but only if the chill is “objectively
reasonable.” Republican Party of Minn., 381 F.3d at
792 (quotation marks omitted); see Balogh v.
Lombardi, 816 F.3d 536, 541–42 (8th Cir. 2016). The
problem is that abortions are not protected
expression, Missouri’s Down Syndrome Provision is
not vague or overbroad (nor is there any claim that it
is), and the chill is not an objectively reasonable
response to the statute. The point is that Dr.
McNicholas cannot threaten to cause the harm herself
by overcorrecting her own behavior to avoid the
speculative risk of sanctions. See Salt Lake Trib.
Publ’g Co. v. AT&T Corp., 320 F.3d 1081, 1106 (10th
Cir. 2003) (“We will not consider a self-inflicted harm
to be irreparable … .”); Caplan v. Fellheimer Eichen
Braverman & Kaskey, 68 F.3d 828, 839 (3d Cir. 1995)
(“If the harm complained of is self-inflicted, it does not
qualify as irreparable.”).
The court’s response brings to mind the classic
game of telephone. Dr. McNicholas said only that
some of her patients have had abortions after
receiving a Down Syndrome diagnosis. The district
court then put its own gloss on her statement when it
used its “[c]ommon understanding and judicial notice”
to announce that “a jury or licensing agency would
have little trouble with the ‘sole cause’ requirement

26a
for a violation” if a woman sought an abortion in those
circumstances. Today, the court adds yet another
gloss by declaring that the district court found “that
the Down Syndrome Provision would likely be
enforced against [Reproductive Health Services] …
even absent certain knowledge that the patient is
seeking an abortion ‘solely’ because of Down
Syndrome.” Ante at 13 n.9. Just like in the telephone
game, the message in the end bears little resemblance
to the message at the start. Dr. McNicholas did not
say any of these things, and the district court did not
actually make a factual finding. Indeed, the district
court relied on “[c]ommon understanding and judicial
notice” precisely because there was no evidence on
these points.11 See Fed. R. Civ. P. 52(a)(6) (providing
that the clear-error standard applies to findings
“based on oral or other evidence” (emphasis added));
see also Am. Prairie Constr. Co. v. Hoich, 560 F.3d
780, 796 (8th Cir. 2009) (reviewing a “decision to take
judicial notice [of a fact] for abuse of discretion”).
Reproductive Health Services wants us to fill in
the gaps on causation and knowledge through
guesswork. That is not how preliminary injunctions
work. It had the burden to connect all the dots for us,
and its failure to do so provides reason enough to
vacate the preliminary injunction. See Watkins Inc.,
346 F.3d at 844 (explaining that failure to establish a
threat of irreparable harm “is an independently
sufficient ground upon which to deny a preliminary
injunction”).

11 As for the district court’s actual findings, I agree that not a
single one of them is clearly erroneous. They simply fall short of
justifying a preliminary injunction.

27a
III.
Nothing in Little Rock Family Planning Services v.
Rutledge, 984 F.3d 682 (8th Cir. 2021), is to the
contrary. In Rutledge, a panel of this court concluded
that the plaintiffs were likely to succeed on the merits
of a challenge to a similar Arkansas statute. See id. at
688–90. Even if Rutledge creates a likelihood of
success on the merits here, Reproductive Health
Services is still not entitled to a preliminary
injunction without showing a threat of irreparable
harm. See Dataphase Sys., Inc., 640 F.2d at 114 n.9.
In any event, I think there is reason to doubt
whether Rutledge was correctly decided, even if this
panel has to follow it. See Mader v. United States, 654
F.3d 794, 800 (8th Cir. 2011) (en banc) (“It is a
cardinal rule in our circuit that one panel is bound by
the decision of a prior panel.” (quotation marks
omitted)); see also Preterm-Cleveland, 994 F.3d at 516,
535 (concluding that a challenge to a similar, but even
more restrictive, law was not likely to succeed on the
merits). It treated Arkansas’s Down Syndrome
Provision as a “complete prohibition o[n] abortions”—
a “ban,” so to speak—not just a “regulation.” Rutledge,
984 F.3d at 688–90. This distinction is critical
because, under our precedent, a pre-viability ban is
categorically unconstitutional. See id. at 687–88; MKB
Mgmt. Corp. v. Stenehjem, 795 F.3d 768, 772–73 (8th
Cir. 2015); Edwards v. Beck, 786 F.3d 1113, 1117 (8th
Cir. 2015) (per curiam). A pre-viability regulation, on
the other hand, is only unconstitutional if it has the
“purpose or effect” of “plac[ing] a substantial obstacle
in the path of a woman seeking an abortion.” Gonzales
v. Carhart, 550 U.S. 124, 146 (2007) (quoting Planned
Parenthood of Se. Pa. v. Casey, 505 U.S. 833, 878
(1992) (plurality opinion)).

28a
We have not made it easy to tell the difference
between the two. In Edwards, we explained that a ban
“prohibits women from making the ultimate decision
to terminate a pregnancy.” 786 F.3d at 1117. A
regulation, by contrast, has only an “incidental effect”
on the decision by “making it more difficult or more
expensive to procure an abortion.” Gonzales, 550 U.S.
at 158 (quoting Casey, 505 U.S. at 874 (plurality
opinion)). The distinction is only complicated by the
fact that a regulation can easily be reframed as a ban:
if its requirements are not met, then a woman will be
“completely prohibited” from having an abortion. Ante
at 9.
As slippery as the dividing line seems to be, if I
were writing on a blank slate, I would conclude that
Missouri’s Down Syndrome Provision is a regulation.
Recall that it says that “[n]o person shall perform or
induce an abortion on a woman if the person knows
that the woman is seeking the abortion solely because
of a prenatal diagnosis, test, or screening indicating
Down Syndrome or the potential of Down Syndrome
in an unborn child.” Mo. Rev. Stat. § 188.038.2.
Interpreting the statute as an ordinary person would,
see Wis. Cent. Ltd. v. United States, 138 S. Ct. 2067,
2070 (2018), all it does is limit the reasons for an
abortion in certain narrow circumstances. As long as
a woman has at least two reasons for seeking an
abortion, or her provider never knows that a positive
Down Syndrome diagnosis, test, or screening is her
sole reason for getting one, “the ultimate decision”
still lies with her. Edwards, 786 F.3d at 1117 (quoting
Casey, 505 U.S. at 879 (plurality opinion)). The
statute is, in other words, a regulation, not a ban. See
id.

29a
An example may help. Title VII of the Civil Rights
Act of 1964 makes it unlawful “for an employer … to
discharge any individual … because of such
individual’s race, color, religion, sex, or national
origin.” 42 U.S.C. § 2000e-2(a)(1). No one would
suggest that Title VII is a ban on firing employees.
Even under Title VII’s broad language, which requires
the reason to be nondiscriminatory, “the ultimate
decision” to terminate someone still rests with the
employer. Edwards, 786 F.3d at 1117 (quoting Casey,
505 U.S. at 879 (plurality opinion)); see Berg v.
Norand Corp., 169 F.3d 1140, 1146 (8th Cir. 1999)
(noting that “[t]he employment-at-will doctrine,
allowing an employer to terminate an employee for
any lawful reason, is [still] alive and well”).
The same is true of Missouri’s Down Syndrome
Provision. Women remain free to terminate their
pregnancies for nondiscriminatory reasons. Indeed,
Missouri’s law is even more permissive than Title VII
in at least two respects: an abortion is still available,
even after a positive diagnosis, test, or screening, as
long as (1) the provider does not know why a woman
is seeking an abortion; or (2) the discriminatory
reason
is
accompanied
by
at
least
one
nondiscriminatory reason. Compare Mo. Rev. Stat.
§ 188.038.2 (setting out the “solely because of”
requirement),
with
42
U.S.C.
§ 2000e-2(m)
(prohibiting discriminatory employment practices
“even [when] other factors also motivated the
practice”). Just like Title VII does not “ban” employers
from firing employees, neither does Missouri’s law
“ban” women from terminating their pregnancies.
Rutledge, unfortunately, seems to foreclose this
common-sense analysis.

30a
IV.
I would accordingly vacate the preliminary
injunction against Missouri’s Down Syndrome
Provision.

31a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MISSOURI
CENTRAL DIVISION
No. 2:19-cv-4155-HFS
REPRODUCTIVE HEALTH SERVICES OF
PLANNED PARENTHOOD OF THE ST. LOUIS
REGION, INC., on behalf of itself, its physicians, and
its patients, and COLLEEN P. MCNICHOLAS, D.O.,
M.S.C.I., F.A.C.O.G, on behalf of herself and her
patients, Plaintiffs
v.
MICHAEL L. PARSON, in his official capacity as
Governor of the State of Missouri, et. al., Defendants.
SUPPLEMENTAL ORDER REGARDING DOWN
SYNDROME
(Doc. 69) Filed September 27, 2019
The State Defendants were recently enjoined
pending litigation from enforcing legislation
prohibiting abortions at various weekly stages of fetal
development prior to viability. This ruling is on
appeal.
A preliminary injunction was denied, however,
concerning statutory prohibitions of “discriminatory”
abortions of non-viable fetuses, where the sole reason
for the abortion was the sex or race of the fetus.
Defendant providers disclaimed any knowledge of
such abortions at their facilities, and none could be
predicted, so the issue was deemed moot. Those
prohibitions remain on the statute books.
Similarly denied, but without prejudice, was a
preliminary injunction motion against prohibiting

32a
abortions motivated by testing indicating Down
Syndrome. The prohibition of such abortions is
prescribed by Mo. Rev. Stat. § 188.038.2. This subsection is the subject matter of a new motion for
reconsideration, or, in the alternative, for a
preliminary injunction. Doc. 59.1
The earlier ruling on “Down Syndrome abortions”
stated that abortions of non-viable fetuses have been
protected under Federal case-law, based on Supreme
Court decisions, and that plaintiff providers are
clearly “likely to prevail in striking down the
prohibited reasons law, insofar as it applies to nonviable fetuses.” Doc. 51; Reproductive Health
Services of Planned Parenthood of St. Louis Region,
Inc. v. Parson, 389 F. Supp. 3d 631, 636 (W.D. Mo.
2019). Injunctive relief could not be entered,
however, in the absence of a showing that “the
inability to schedule ‘Down syndrome abortions’
would likely interfere with the abortion rights of reallife women during the time-frame of this law suit.” Id.
at 638. I suggested further consideration of “an
adequately supported renewed motion on this narrow
issue.” Such a motion was promptly filed, with
additional information from co-plaintiff McNicholas,
apparently the best informed person.2
Before turning to the current factual situation and
the legal contentions of the parties, a practical
consideration may place this part of the dispute in
context. If a preliminary injunction continues to be
The parties agree, as do I, that this is a collateral issue on
which I retain jurisdiction.
1

2 The State Defendants do not question the information
supplied, and offer nothing further – but do contend that the
plaintiffs’ material remains insufficient to authorize relief.

33a
denied, because of a deficiency in proof regarding
women likely to be seeking abortions because of Down
syndrome testing of a fetus, there is a distinct
possibility that such an abortion patient may report to
plaintiff providers any day or week during litigation.
Without injunctive protection in place, it is
predictable that a legal emergency would ensue; that
is, a temporary restraining order would be sought to
allow the abortion to take place. The likelihood of
granting a TRO would be strong. There would then
likely ensue hectic back-and-forth litigation like that
which occurred from October 18–26, 2017, as
described in Azar v. Garza, 138 S. Ct. 1790 (2018).
While the courts may be disciplined to handle such
situations, it would be most difficult to have the sort
of orderly and thorough appellate consideration ofthe
ultimate merits that was invited by the Supreme
Court on this very issue. Box v. Planned Parenthood
of Indiana and Kentucky, Inc., 139 S. Ct. 1780
(2019). I confess some relief that my appraisal of
the factual situation here is consistent with an orderly
processing of the controversy.
The facts do support injunctive relief now, as
outlined below, although the Down Syndrome
condition in the population is quite rare, thus
suggesting rather infrequent abortion requests. A
“Down Syndrome Center” brochure, submitted by
plaintiffs, suggests that “one in every 800–1000
children” has been so diagnosed. Doc. 47-4, Ex. B. See
comparable figures in Doc. 60-1 Ex. 1, p.4.3 But the
McNicholas Supplemental Declaration (Doc. 60-1)
indicates that, even without inquiry by providers
3 This would relate to living children, thus failing to include
the significant number of fetal abortions.

34a
before performing abortions, she specifically recalls
that three patients she treated in the last 12 months
had received “a fetal diagnosis of Down Syndrome.”
¶ 9. She also estimated she had “approximately one to
four cases per week” reporting a “genetic or
structural anomaly,” and that Down syndrome is
“the most common fetal aneuploidy.” (abnormal
number of chromosomes in a cell). ¶ 10.
The only available information that might tend to
reduce the number of such patients was a review of
medical records identifying only four patients in 13
months where Down Syndrome may have been
present. Doc. 60-1, ¶ 11. But those records were
referred to as “underinclusive,” a characterization not
questioned by the State Defendants. The absence of
information and records is explained by plaintiffs’
view prior to the new statute that abortion decisions
are for the patients to make, without any special
inquiries by the providers – thus, any information
that is available was inadvertently received.
With the high level of “genetic or structural
anomal[ies]” and Down Syndrome being the most
common abnormality of numbers of chromosomes in a
cell, it should fairly be concluded that Dr. McNicholas’
personal dealing with one identified Down Syndrome
abortion at about four-month intervals considerably
understates the abortions of that nature at plaintiff’s
facility. If I would now project eight more months of
litigation before judgment (perhaps by summary
judgment) I must conclude that at least a small
number of women would predictably need protection

35a
during litigation, if the statutory prohibition is
invalid.4
For reasons mentioned earlier (Doc. 65, p. 3) the
State Defendants have not and are unlikely to belittle
the significance of even a few abortions during
litigation, and I conclude that the requested
protection of the abortion rights of a few women
during litigation should suffice to authorize shortterm anticipatory injunctive protection. I adopt but do
not repeat legal discussion of standing issues and the
like dealt with in the prior ruling, now in print, and in
the denial of a stay. Doc. 65. These issues are on
appeal and should probably not be elaborated on or rearticulated while the Circuit Court has jurisdiction.
The State Defendants’ most current procedural
objection relies on two aspects of the circumstances at
bar. They repeatedly refer to the statutory
requirement that the forbidden motive be the “sole”
cause of the abortion and they argue that there is an
absence of the necessary “certainty” in the prediction
of likely requests for the forbidden “Down syndrome
abortions,” citing Clapper v. Amnesty Int’l. USA, 568
U.S. 398, 409 (2013).
Common understanding and judicial notice would
conclude that a Down syndrome diagnosis (or even a
strong suspicion based on testing) would often be
received with dismay by a pregnant woman and any
family members. If an abortion were sought
thereafter, most of us, including an abortion provider,
would suppose that the diagnosis was the principal
4 I agree with plaintiffs that the appeal, and the stay of
procedures on the motion to dismiss (because they duplicate, in
part, issues before the Court of Appeals) makes this litigation
more protracted than I had anticipated.

36a
cause of the request, and that a jury or licensing
agency would have little trouble with the “sole cause”
requirement for a violation. As the Chief Justice
recently observed, quoting Judge Friendly, “‘we are
not required to exhibit a naiveté from which ordinary
citizens are free.’” Dept. of Commerce v. New York, 139
S. Ct. 2551, 2575 (2019).
On the issue of “certainty” of a Down Syndrome
motivated abortion request during litigation, the facts
reviewed show a very high likelihood of such an
occurrence, if litigation continues for a considerable
period. And where the plaintiff providers are
“themselves the objects of a challenged statute” the
Circuit quite recently noted that Clapper does not set
the standard of likely danger that the courts use
before entertaining a challenge. Alexis Bailly
Vineyard, Inc. v. Harrington, 931 F.3d 774, 778–79
(8th Cir. 2019).
Clapper itself, with relatively uninvolved parties,
noted that “[o]ur cases do not uniformly require
plaintiffs to demonstrate that it is literally certain
that the harms they identify will come about.” 568
U.S. at 414 n. 5. In our case, the most likely scenario,
from plaintiffs’ filings, would be the provider’s
declining a requested abortion, in terrorem. Absent a
hurried TRO or a preliminary injunction, the
prospective patient would lose the Constitutional
right to which she is currently entitled. That right
needs protection here—and no discernible legal harm
would occur from granting the preliminary injunction
as requested, which simply supplements the
restriction now in place.5
5 The appellate panel would doubtless retain the right to ask
counsel for a report, immediately before argument on appeal or

37a
The order entered on August 27 (Doc. 51; 389 F.
Supp. 3d at 640) is hereby MODIFIED to prohibit the
Missouri official defendants, their employees, agents
and successors in office from enforcing, pending
litigation, Mo. Rev. Stat. § 188.038.2. insofar as it
relates to non-viable fetuses. SO ORDERED.
/s/ Howard F. Sachs
Howard F. Sachs
United States District Judge
September 27, 2019
Kansas City, Missouri

before handing down an opinion, regarding Down Syndrome
abortion experience of plaintiffs pending litigation. The provider
is required to certify knowledge of such abortions under a
statutory provision not involved in litigation. Mo. Rev. Stat.
§ 188.052.1. Thus, if the panel later determined that lack of
experience under the prohibition demonstrates there is a moot
issue, an appellate ruling on the merits could be declined and
this phase of the proceeding would be rendered harmless.

38a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MISSOURI
CENTRAL DIVISION
No. 2:19-cv-4155-HFS
REPRODUCTIVE HEALTH SERVICES OF
PLANNED PARENTHOOD OF THE ST. LOUIS
REGION, INC., on behalf of itself, its physicians,
and its patients, and COLLEEN P. MCNICHOLAS,
D.O., M.S.C.I., F.A.C.O.G, on behalf of herself and
her patients, Plaintiffs
v.
MICHAEL L. PARSON, in his official capacity as
Governor of the State of Missouri, et. al.,
Defendants.
CORRECTED
MEMORANDUM AND ORDER
(Doc. 51) Filed August 27, 2019
Plaintiffs, as abortion providers with facilities in
St Louis (“RHS”), and on behalf of prospective
patients, seek a preliminary injunction stopping
several restrictive provisions of Missouri House Bill
126 from going into effect this Wednesday, August
28. Four sections would prohibit abortions in
Missouri after various weekly dates, all prior to fetal
viability.1 Another section would prohibit abortions
of all fetuses, viable and non-viable, where the
pregnant woman’s reason to abort is solely based on

1

Mo. Rev. Stat. §§ 188.056, 188.057, 188.058, and 188.375.

39a
sex, race, or prospective Down Syndrome of an
expected infant.2
The defendant Missouri officials offer procedural
challenges before dealing with the merits. Doc. 35.
They challenge “third-party standing” to assert
interests of patients, assert absence of a cause of
action under 42 U.S.C. § 1983, lack of Article III
standing and ripeness to challenge the antidiscrimination provisions. All except the ripeness
issue (relating to imminence of actual harm) may
be readily rejected, at least for preliminary
injunction purposes, for reasons noted by Judge
Sutton in Planned Parenthood of Greater Ohio v.
Hodges, 917 F.3d 908 (6th Cir. en banc 2019). While
the Sutton majority opinion rejected a Planned
Parenthood constitutional claim of public funding
discrimination, he wrote:
Third-party standing cases (are distinguishable).
In those cases, the Supreme Court held that
abortion providers have standing to bring the due
process challenges on behalf of their patients.
See, e.g., Singleton v. Wulff, 428 U.S. 106, 118
(1976) (plurality); see also Diamond v. Charles,
476 U.S. 54, 65–66 (1986). But these decisions
do not establish that the providers themselves
have due process rights. Much to the contrary.
The premise of these challenges is that the
providers have no constitutional rights of their
own in this setting. Why else go through the
rigamarole of granting the provider third- party
standing to file the claim?
2

Mo. Rev. Stat. § 188.038.

40a
A provider’s standing to assert and litigate
rights of anticipated future abortion patients was
assumed by all members of the Supreme Court in
Ayotte v. Planned Parenthood of Northern New
England, 546 U.S. 320, 324 (2006). It was not
questioned by present counsel in Comprehensive
Health of Planned Parenthood Great Plains v.
Hawley, 903 F.3d 750 (8th Cir. 2018) where footnote
7 indicates a limited challenge to standing, and the
panel observed that “this is a third-party facial
challenge.” That is true here, except that the
challenge to barring specified discriminatory
reasons is an as-applied challenge, limited to
prospective patients who might seek abortions of
non-viable fetuses. I defer the limited ripeness issue
and conclude that settled law supports this case
procedurally.
On August 6, District Judge Baker in Arkansas
dealt with almost identical questions and granted
the requested preliminary relief as to non-viable
fetuses. Little Rock Family Planning Services v.
Rutledge, 2019 WL 3679623 (E.D. Ark.). Both
the time limitations on abortions and the antidiscrimination provisions for non-viable fetuses
have been uniformly rejected by federal courts,
according to the Little Rock opinion and briefing
here. Granting this motion in large part is required
by law, as further explained below, there being no
pertinent factual disputes.3
3 As stated in defendants’ disclosure summarizing the
contents of their exhibits, filed in opposition to plaintiffs’
motion (Doc. 31), their declarants support legislative findings
that might justify prohibitions on abortions before fetal
viability. They deal with contentions (now contested) as to fetal
pain, harmful impacts of abortion on the women involved,

41a
I.

Prohibited Reasons for Abortion of Nonviable Fetuses

The most challenging and novel of the issues in
this case is the State’s attempt to prohibit all
abortions (including those of non-viable fetuses) for
special reasons that are deemed contrary to public
policy. Mo. Rev. Stat. § 188.038, effective August 28,
2019. The State would prohibit a pregnant woman’s
favoritism of males, for instance, or apparently
healthy prospective infants while choosing to abort
fetuses with disfavored characteristics. For present
purposes I assume that almost everyone in our
culture would be appalled by a pregnant woman’s
abortion of a fetus identified as female because the
woman or the family preferred that she give birth to
a boy. The legal issue is whether the public, through
legislation, has a right to intervene and prohibit
such a discriminatory or “selective” abortion of a
fetus before viability. Plaintiffs do not challenge the
validity of the prohibitions after viability, which
heartbeat
timing,
ethical
considerations,
worldwide
restrictions earlier than viability, progress in evaluating early
development, etc.. While these considerations might be
considered pertinent by the Supreme Court in reevaluating
abortion jurisprudence, they do not free the lower federal
courts from standards previously established by that Court. A
panel of the Eighth Circuit that advocated reconsideration by
the Supreme Court of its abortion jurisprudence nevertheless
acknowledged it was compelled to reject such reasons for
changing pertinent law. MKB Management Corp. v Stenehjem,
795 F.3d 768, 773 (8th Cir. 2015). As discussed below, the
current ruling turns on two questions of law announced by a
majority of the Supreme Court, as it was constituted when
Justice Kennedy retired – that is, the viability test and the
categorical right of women seeking abortions of non-viable
fetuses.

42a
duplicated existing law. Under existing Missouri
law, no viable fetuses can be aborted, unless
required by the woman’s health. Mo. Rev. Stat.
§ 188.030.
The Supreme Court has not dealt with the merits
of this question. Earlier this year, however, it
declined to review a Seventh Circuit ruling that did
prevent Indiana from restricting a discriminatory
choice by pregnant women in that State. Box v.
Planned Parenthood of Indiana and Kentucky, Inc.,
139 S. Ct. 1780 (2019). The Court described the
legislation as “barring the knowing provision of sex, race-, or disability-selective abortions by abortion
providers.” Id. at 1781. The denial of certiorari was
explained by the novelty of the legal issues, which
“have not been considered by additional Courts of
Appeals.” Id. at 1782. The concurrence by Justice
Thomas demonstrated great interest in the ultimate
question of a State’s authority, in his phrasing, to
prevent “abortion from becoming a tool of modernday eugenics,” citing the recent State laws seeking
to prevent abortions motivated by race, sex, genetic
abnormality, and Down Syndrome. Id. at 1783.4
4 There is apparently much popular interest in this phase of
the new legislation. See frontpage article in the Kansas City
Star of August 4, 2019, with the sub-head, “Missouri law denies
abortion for fatal (“fetal”?) disorders.” But the record here
suggests that the proposed prohibition of certain controversial
abortions affects only a small number of non-viable fetus
abortions. Opening up the subject for legislation could,
however, logically reach more common reasons for early
abortions, such as the prospective illegitimacy of babies born
to unmarried girls and women. Illegitimacy being a frequently
disfavored status, perhaps it may be treated as comparable to
health issues or disfavored sex or race characteristics. While
there is no known legislation to protect the prospectively

43a
The panel opinion in the Indiana case that was
denied certiorari stated simply that “the nondiscriminatory provisions clearly violate wellestablished Supreme Court precedent holding that a
woman may terminate her pregnancy prior to
viability, and that the State may not prohibit a
woman from exercising that right for any reason.”
Planned Parenthood of Indiana and Kentucky, Inc.
v. Commissioner of the Indiana State Dep’t of
Health, 888 F.3d 300, 302 (7th Cir. 2018)
(emphasis added). Judge Manion, expressing
dissatisfaction, agreed that Supreme Court
precedent invalidated the abortion motivation
prohibition that Indiana sought to impose, but only
“[b]ecause I have no choice but to follow Supreme
Court precedent.” Id. at 316.
The recent Arkansas decision reaches the same
conclusion, for the same reason. That is the result
reached by other federal court judges who have ruled
the question. In the district court case affirmed by
the Seventh Circuit, the ruling stated that under
existing law, as established by the Supreme Court,
a “woman’s right to choose to terminate a pregnancy
pre-viability is categorical.” Planned Parenthood of
Ind. & Ky., Inc. v. Comm’r, Indiana State Dep’t of
Health, 265 F. Supp. 3d 859, 866 (S.D. Ind. 2017).
In Preterm-Cleveland v. Himes, 294 F. Supp. 3d 746
(S.D. Ohio 2018), the Indiana case was relied on to
reach the same result. Preterm has been appealed
and was argued in the Sixth Circuit in January,
illegitimate, such legislation for non-viable fetuses could be
legally evaluated similarly to the issues here. We are thus
dealing with a potentially large problem, numerically as well
as intrinsically important.

44a
2019. Little Rock Family Services, supra, at p. 36.
Significant rulings on this issue may be imminent.
Although other Supreme Court language is
relied on to invalidate any prohibition of previability abortions, the “essential holding” most
quoted is from the plurality opinion in Planned
Parenthood of Southeastern Pennsylvania v. Casey,
505 U.S. 833, 846 (1992), containing the rule that
“[b]efore viability, the State’s interests are not
strong enough to support a prohibition of abortion or
the imposition of a substantial obstacle to the
woman’s effective right to elect the procedure.” It
was repeated, “a Statemay not prohibit any woman
from making the ultimate decision to terminate her
pregnancy before viability.” Id. at 879. Thus, cases
to date have accepted the woman’s “ultimate
decision” and have rejected prohibitions of certain
reasons for the decision.
Dissatisfaction has been voiced, as noted,
perhaps most meaningfully by Judge Easterbrook in
dissenting from the Seventh Circuit’s close vote
denying a rehearing en banc in the Indiana case.
Planned Parenthood of Indiana and Kentucky Inc. v.
Commissioner of the Indiana State Dept of Health,
917 F.3d 532 (2018). He argued that “Judges often
said that employers could fire workers for any or no
reason,” and thereafter “regularly created
exceptions when the discharge was based on race,
sex, or disability.” Id. at 536. Of course Supreme
Court justices sometimes overstate principles, and
then reword the rules. But an appellate court that
modifies a rule is appropriately the court that
announced the rule. Lower court judges do not often
“correct” the language of the Supreme Court. While

45a
it can be speculated that the Supreme Court’s
language in Box implicitly invited appellate judges
to review the merits of prohibitions of
discriminatory abortions, any such invitation was
not addressed to district judges.
There are no pertinent factual disputes on this
aspect of the case. For present purposes I assume,
in accordance with declarations offered by the
Missouri defendants, that there are adequate
public policy reasons to adopt the prohibitions
against aborting fetuses because they are
disfavored by the pregnant woman on grounds of
sex, race or Down Syndrome likelihood. I recognize
that a Down Syndrome abortion is a very
debatable subject, but it would likely be a
legislative issue rather than a judicial issue if
abortion jurisprudence, as established by the
Supreme Court, permitted a legislative override of
any aspect of a woman’s right to abort a non-viable
fetus. All judicial rulings so far preclude such a
legislative override in this context. It is clear today
that plaintiffs are likely to prevail in striking down
the prohibited reasons law, insofar as it applies to
non-viable fetuses.
Another legal point remains. The Missouri
defendants argue that relief from a regulation of
abortion cannot be obtained unless the statute
imposes an undue burden on a large fraction of
women seeking an abortion. E.g., Planned
Parenthood of Arkansas & Eastern Oklahoma v.
Jegley, 864 F.3d 953 (8th Cir. 2017). The courts that
have dealt with such an issue in cases like the
present one, however, have limited that test to
statutes that “regulate” abortion practice, not cases

46a
like this one that impose a complete prohibition of
certain classes of abortions for non-viable fetuses.
Edwards v. Beck, 786 F.3d 1113 (8th Cir. 2015),
ruled that the State cannot recharacterize a ban as
a regulation, and thus lighten its obligation to
respect the rights of pregnant women, as
represented by providers. Id. at 1117. See also the
same rationale in Isaacson v. Horne, 716 F.3d 1213,
1225 (9th Cir. 2013). In any event, at the
preliminary injunction stage, the issue is whether
plaintiffs are likely to prevail. With existing law as
reviewed above, plaintiffs easily pass that test. But,
as discussed below, that is not the only factor to be
considered in exercising judicial discretion to grant
or withhold a preliminary injunction.
II.

Prohibition of Abortions after 20 or
Fewer Weeks

House Bill 126 attempts to make a second major
change in abortion law—it limits abortions after 8
weeks from the patient’s last menstrual period
(“LMP”). If this is deemed constitutionallyforbidden,
the weeks are extended to 14, then 18, and finally
20. Because viability has never occurred that early,
so it is understood,5 the effect of the legislation is to
5 Plaintiff
Reproductive Health Services of Planned
Parenthood of the St Louis Region (“RHS”) uses 21 weeks and
6 days LMP as its guideline for providing pre-viability surgical
abortions. McNicholas Decl. § 25. Doc. 3. This is consistent
with the cases cited by the Eighth Circuit, where the current
records of newborn infant survival have not reached below 21
or 22 weeks. MKB Management Corp. v. Stenehjem, 795 F.3d
768, 773 (8th Cir 2015). The Missouri authorities have not
asserted that RHS has been violating the current prohibition
of abortions of viable fetuses.

47a
cut back the viability test, as adopted by the
Supreme Court in Casey. The Little Rock ruling on
August 6 prohibits enforcement during litigation of
very similar legislation in that State, although
Arkansas stops at 18 rather than 20 weeks. However
formulated, the legislation on its face conflicts with
the Supreme Court ruling that neither legislative
nor judicial limits on abortion can be measured by
specified weeks of development of a fetus; instead,
“viability” is the sole test for a State’s authority to
prohibit abortions where there is no maternal health
issue. That is the lesson of Casey, previously
quoted, as widely recognized by the lower courts,
including the Eighth Circuit. See also, the
concurrence of Justice O’Connor in Webster v.
Reproductive Health Services, 492 U.S. 490, 528
(1989) (where testing at 20 weeks was permissibly
required), repeating the language of Colautti v.
Franklin, 439 U.S. 379, 388–89 (1979), that “‘neither
the legislature nor the courts may proclaim one of
the elements entering into the assessment of
viability—be it weeks of gestation … or any other
single factor— as the determinant of when the
State has a compelling interest in the life or health
of the fetus. Viability is the crucial point.’”
(emphasis added). The Missouri General Assembly
has just done what Justice O’Connor declared is
impermissible.
The Supreme Court’s prohibition on a State’s
selecting a specific fetal age where abortion could be
prohibited has been enforced in many cases,
including the Little Rock case. A 20-week limit has
been struck down in several. Bryant v. Woodall,
363 F. Supp. 3d 611 (M.D.N.Car. 2019) (appealed
6/26/2019); McCormack v. Herzog, 788 F.3d 1017

48a
(9th Cir. 2015) (Idaho statute); Isaacson v. Horne,
716 F.3d 1213 (9th Cir. 2013) (Arizona statute);
Jane L. v. Bangerter, 809 F. Supp. 865 (D. Utah.
1992) (appealed on other issues).
It is thus highly likely that the listed weekly time
limits on abortions will be ruled invalid in the final
judgment in this case.
III.

Preliminary
Issues.

Injunction

Evaluation

In addition to evaluating likelihood of success in
obtaining a permanent injunction, I must consider
the threat of irreparable harm to plaintiffs and
patients if the challenged provisions of Bill 126 go
into effect this week, the balance of harm to the
parties if preliminary relief is granted, and the
public interest. Dataphase Sys. Inc. v. C L Sys. Inc.,
640 F.2d 109, 114 (8th Cir. 1981). I need also
consider whether preservation of the status quo
would be served by granting interim relief.
Enjoining new legislation pending litigation and
before the effective date seems to be a method of
preserving the status quo during the pendency
of
the
lawsuit.
Association of Equipment
Manufacturers v. Burgum, 2017 WL 8791104
(D.N.Dak.). While federal courts should generally
be very cautious before delaying the effect of State
laws, the sense of caution may be mitigated when
the legislation seems designed, as here, as a protest
against Supreme Court decisions.
The hostility to, and refusal to comply with, the
Supreme Court’s abortion jurisprudence is most
obviously demonstrated in the attempt to push
“viability” protection downward in various weekly

49a
stages to 8 weeks LMP. This is contrary to repeated,
clear language of the Court. The anti-discrimination
section seeks to create novel exceptions to some
plain but general language. That is a less
questionable legislative practice. It does seem so
likely wrong, however, that it should not be
permitted to go into operation, unless the relief
sought offers minimal demonstrable practical
benefit – or, in other words, the denial of immediate
relief is not demonstrably harmful.
The greatest impact of House Bill 126 would be
to prohibit abortions in Missouri after 8 weeks LMP.
This would prohibit more than two thirds of plaintiff
RHS’s patients from obtaining abortions and about
half the reported abortions in Missouri. McNicholas
Decl. ¶ 52. Crumbliss Decl. ¶ 14. Docs. 3 & 35. The
impact of the 20-week rule seems likely to prohibit
about 100 abortions performed each year.
McNicholas Decl. § 52. I classify that as a
significant interference with plaintiffs’ service and
the rights of its prospective patients, so it should be
considered quite adequate as harm to justify
immediate relief from the defective provisions of
House Bill 126. The least impact would result from
prohibiting the sex or race reasons for an abortion,
the occurrence of which is unknown to the Chief
Medical Officer of RHS. McNicholas Decl. § 59. An
abortion before viability motivated by a Down
Syndrome test would also be somewhat rare, given
the window of time needed for adequate testing
and consultation. Bebbington Decl. §§ 9, 22–24, 43.
And we do not know the frequency of those abortions
in Missouri, where the testing rate might be greater
or below testing elsewhere.

50a
There is an absence of any information from RHS
that would allow me to assess whether, if final
judgment is possible in several months, the inability
to schedule “Down syndrome abortions” would be
likely to interfere with the abortion rights of real-life
women. I asked counsel early in the morning of
argument, “Why is there neither a disclaimer nor an
estimate of ‘Down Syndrome abortions’ at RHS?”
This issue remains entirely speculative after
argument, perhaps because no estimate is possible,
since Down Syndrome is rarely mentioned by
patients. If so, there could be no sanctions, since the
law requires knowledge before a provider is in
violation.6 Caution suggests I withhold a
preliminary
injunction
against
the
antidiscrimination section, but remain open to an
adequately supported renewed motion on this
narrow issue.7

Plaintiffs complain that this provision will, if ultimately
validated by the courts, cause them to engage in inappropriate,
intrusive discussions with women seeking abortions. But one
can imagine that if there is a legally validated prohibition,
providers would protect themselves by adding to medical
paperwork a question such as “Is this procedure being sought
because of race, sex or Down syndrome?” One would guess this
would lead to the effective discontinuance of “Down syndrome
abortions” at RHS. Until there is finality on the legal issue,
which currently tilts in favor of plaintiffs, one might suppose
fewer questions would be asked, since they are not required,
and that the status quo could be preserved without court order.
At least this may be true for the next several months, which
would diminish the likelihood of harm from denial of a
preliminary injunction. If my supposition is mistaken, a
further motion can be filed.
6

7 The related issue of ripeness will apparently be the subject
of further briefing. Doc. 33,p 12.

51a
In plaintiffs’ reply brief (Doc. 47) they candidly
change the emphasis to perceived harm that
compliance might cause RHS and its officials and
medical personnel. They suggest criminal penalties
or loss of licenses. Prosecutions seem even more
speculative or unlikely than the possible loss of an
abortion opportunity during the next several
months by some pregnant woman and her family.
The St. Louis Circuit Attorney, a named defendant,
does not oppose plaintiffs’ request for a preliminary
injunction. Doc. 42, noted in Doc. 47, p. 1. License
controversies on this subject also seem entirely
unlikely. Both this court and the State Courts are
open to RHS or any other target of a license
cancellation. Unlike many individuals who seek
abortions, legal assistance seems available, and the
views expressed here should reduce the likelihood
of harassment issues concerning the antidiscrimination section.
The public interest in this case at this time
seems dominated by the analysis of which party is
likely to prevail, which overwhelmingly favors
plaintiffs, and
seems unlikely to change
dramatically in the next several months; that is,
before final judgment can be entered.8 A
The apparent absence of material facts that are in dispute
suggests that summary judgment may be the most expeditious
way to advance this case toward an appeal.
8

In offering this procedural suggestion I am aware that the
Missouri brief proposes slowing the case for development and
consideration of a factual record, advising that last Monday it
submitted extensive newly developed evidence. Doc. 35.
Missouri has offered material for the record (and perhaps
appellate or Supreme Court consideration) regarding the
“discrimination” issues. There is also a good deal of material

52a
preliminary injunction in favor of plaintiffs is
appropriate here, except as to § 188.038, the antidiscrimination section.
IV.

Severability and Conditions

The Missouri General Assembly has made clear
that it wishes to preserve as much of House Bill 126
as can be saved under current law. The various
sections specifying prohibitions on abortions at
various weeks prior to viability cannot be allowed to
go into effect on August 28, as scheduled. The
existing prohibition against abortion of viable
fetuses remains in effect, and is not challenged, so
a preliminary injunction leaves Missouri with a

relating to fetus development and other issues outlined in Doc.
31. But the two basic issues regarding (1) restricting reasons
for exercising abortion rights before viability and (2) banning
abortions at various weekly stages before viability seemingly
present pure legal questions. Both prohibitions very likely
conflict with current abortion jurisprudence. Because I was the
district judge in the Hawley case, supra, and because the
Missouri defendants seek to equate the need for factual
development in that case with this one, I note that the “factual
issues” here and there are unrelated. Here I express the view,
with other judges, that certain Supreme Court legal rulings are
binding. In Hawley, on the “factual issues” I was of the view
that certain Supreme Court factual rulings on “legislative
facts” or “social facts” were binding, and could not be relitigated
at the district court. See Doc. 113 in Case 16-4313. For
illustration, I quoted Judge Easterbrook that “after a majority
of the Supreme Court has concluded that photo ID
requirements promote confidence, a single district judge
cannot say as a ‘fact’ that they do not even if 20 political
scientists disagree with the Supreme Court.” Avoidance of facts
here is thus in a different context, that is, whether a legal
principle established by the Supreme Court can be rebutted by
factual material offered in the lower courts.

53a
public policy against abortions to the extent
permitted by Constitutional law.
The statutory prohibition of discriminatory or
selective abortions is unqualified, thus applying to
both viable and non-viable fetuses. If it were possible
to sever the language to limit the coverage to viable
fetuses I would do so, but that cannot be done
without judicial re-writing of the section, a practice
to be avoided when possible. The desired result could
be achieved, however, by using an as applied rather
than a comprehensive injunction. A full facial
challenge is not appropriate here because RHS
limits its practice to non-viable fetus abortions (21
weeks, 6 days, LMP).
As is customary in cases of this nature, and
consistently with Rule 65 (c), Fed. R. Civ. Proc., no
bond will be required from plaintiffs in this case.
Little Rock Family Planning Services, supra, 2019
WL 3679623, at * 90.
It is therefore ORDERED that the Missouri
official defendants, their employees, agents, and
successors in office are hereby PROHIBITED,
pending litigation or further order of the court, from
enforcing certain pre-viability bans on abortions,
pursuant to H.B. 126; specifically, Mo. Rev. Stat.
§§ 188.056, 188.057, 188.058, 188.375. The motion
for preliminary injunction is DENIED without
prejudice as to § 188.038.
Jurisdiction is retained to modify this order
pending litigation, on motion or to make certain
corrections.

54a
/s/ Howard F. Sachs
Howard F. Sachs
United States District Judge
August 27, 2019
Kansas City, Missouri

55a
APPENDIX D
U.S. Constitution, Amendment XIV
Section 1. All persons born or naturalized in the
United States, and subject to the jurisdiction thereof,
are citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of
the laws.
Section 2. Representatives shall be apportioned
among the several States according to their respective
numbers, counting the whole number of persons in
each State, excluding Indians not taxed. But when the
right to vote at any election for the choice of electors
for President and Vice President of the United States,
Representatives in Congress, the Executive and
Judicial officers of a State, or the members of the
Legislature thereof, is denied to any of the male
inhabitants of such State, being twenty-one years of
age, and citizens of the United States, or in any way
abridged, except for participation in rebellion, or other
crime, the basis of representation therein shall be
reduced in the proportion which the number of such
male citizens shall bear to the whole number of male
citizens twenty-one years of age in such State.
Section 3. No person shall be a Senator or
Representative in Congress, or elector of President
and Vice President, or hold any office, civil or military,
under the United States, or under any State, who,
having previously taken an oath, as a member of
Congress, or as an officer of the United States, or as a

56a
member of any State legislature, or as an executive or
judicial officer of any State, to support the
Constitution of the United States, shall have engaged
in insurrection or rebellion against the same, or given
aid or comfort to the enemies thereof. But Congress
may by a vote of two-thirds of each House, remove
such disability.
Section 4. The validity of the public debt of the
United States, authorized by law, including debts
incurred for payment of pensions and bounties for
services in suppressing insurrection or rebellion, shall
not be questioned. But neither the United States nor
any State shall assume or pay any debt or obligation
incurred in aid of insurrection or rebellion against the
United States, or any claim for the loss or
emancipation of any slave; but all such debts,
obligations and claims shall be held illegal and void.
Section 5. The Congress shall have power to
enforce, by appropriate legislation, the provisions of
this article.

57a
APPENDIX E
§ 188.026, Revised Statutes of Missouri
188.026. Missouri Stands for the Unborn Act —
findings of general assembly — interests of the
state of Missouri. — 1. This section and sections
188.056, 188.057, and 188.058 shall be known and
may be cited as the “Missouri Stands for the Unborn
Act”.
2. In Roe v. Wade, 410 U.S. 113 (1973), certain
information about the development of the unborn
child, human pregnancy, and the effects of abortion
was either not part of the record or was not available
at the time. Since 1973, advances in medical and
scientific technology have greatly expanded our
knowledge of prenatal life and the effects of abortion
on women. The general assembly of this state finds:
(1) At conception, a new genetically distinct
human being is formed;
(2) The fact that the life of an individual human
being begins at conception has long been recognized in
Missouri law: “[T]he child is, in truth, alive from the
moment of conception”. State v. Emerich, 13 Mo. App.
492, 495 (1883), affirmed, 87 Mo. 110 (1885). Under
section 1.205, the general assembly has recognized
that the life of each human being begins at conception
and that unborn children have protectable interests in
life, health, and well-being;
(3) The first prohibition of abortion in Missouri
was enacted in 1825. Since then, the repeal and
reenactment of prohibitions of abortion have made
distinctions with respect to penalties for performing
or inducing abortion on the basis of “quickening”;

58a
however, the unborn child was still protected from
conception onward;
(4) In ruling that Missouri’s prohibition on
abortion was constitutional in 1972, the Missouri
supreme court accepted as a stipulation of the parties
that “‘[i]nfant Doe, Intervenor Defendant in this case,
and all other unborn children have all the qualities
and attributes of adult human persons differing only
in age or maturity. Medically, human life is a
continuum from conception to death.’” Rodgers v.
Danforth, 486 S.W.2d 258, 259 (1972);
(5) In Webster v. Reproductive Health Services,
492 U.S. 490 (1989), the Supreme Court, while
considering the “preamble” that set forth “findings” in
section 1.205, stated: “We think the extent to which
the preamble’s language might be used to interpret
other state statutes or regulations is something that
only the courts of Missouri can definitively decide.
State law has offered protections to unborn children
in tort and probate law”. Id. at 506. Since Webster,
Missouri courts have construed section 1.205 and
have consistently found that an unborn child is a
person for purposes of Missouri’s homicide and
assault laws when the unborn child’s mother was
killed or assaulted by another person. Section 1.205
has even been found applicable to the manslaughter
of an unborn child who was eight weeks gestational
age or earlier. State v. Harrison, 390 S.W.3d 927 (Mo.
Ct. App. 2013);
(6) In medicine, a special emphasis is placed on
the heartbeat. The heartbeat is a discernible sign of
life at every stage of human existence. During the
fifth week of gestational age, an unborn child’s heart

59a
begins to beat and blood flow begins during the sixth
week;
(7) Depending on the ultrasound equipment
being used, the unborn child’s heartbeat can be
visually detected as early as six to eight weeks
gestational age. By about twelve weeks gestational
age, the unborn child’s heartbeat can consistently be
made audible through the use of a handheld Doppler
fetal heart rate device;
(8)
Confirmation of a pregnancy can be
indicated through the detection of the unborn child’s
heartbeat, while the absence of a heartbeat can be an
indicator of the death of the unborn child if the child
has reached the point of development when a
heartbeat should be detectable;
(9) Heart rate monitoring during pregnancy
and labor is utilized to measure the heart rate and
rhythm of the unborn child, at an average rate
between one hundred ten and one hundred sixty beats
per minute, and helps determine the health of the
unborn child;
(10) The Supreme Court in Roe discussed “the
difficult question of when life begins” and wrote:
“[p]hysicians and their scientific colleagues have
regarded [quickening] with less interest and have
tended to focus either upon conception, upon live
birth, or upon the interim point at which the fetus
becomes ‘viable’, that is, potentially able to live
outside the mother’s womb, albeit with artificial aid”.
Roe, 410 U.S. at 160. Today, however, physicians’ and
scientists’ interests on life in the womb also focus on
other markers of development in the unborn child,
including, but not limited to, presence of a heartbeat,
brain development, a viable pregnancy or viable

60a
intrauterine pregnancy during the first trimester of
pregnancy, and the ability to experience pain;
(11)
In Planned Parenthood of Central
Missouri v. Danforth, 428 U.S. 52 (1976), the Supreme
Court noted that “we recognized in Roe that viability
was a matter of medical judgment, skill, and technical
ability, and we preserved the flexibility of the term”.
Id. at 64. Due to advances in medical technology and
diagnoses, present-day physicians and scientists now
describe the viability of an unborn child in an
additional manner, by determining whether there is a
viable pregnancy or viable intrauterine pregnancy
during the first trimester of pregnancy;
(12) While the overall risk of miscarriage after
clinical recognition of pregnancy is twelve to fifteen
percent, the incidence decreases significantly if
cardiac activity in the unborn child has been
confirmed. The detection of a heartbeat in an unborn
child is a reliable indicator of a viable pregnancy and
that the unborn child will likely survive to birth,
especially if presenting for a prenatal visit at eight
weeks gestational age or later. For asymptomatic
women attending a first prenatal visit between six
and eleven weeks gestational age where a heartbeat
was confirmed through an ultrasound, the subsequent
risk of miscarriage is one and six-tenths percent.
Although the risk is higher at six weeks gestational
age at nine and four-tenths percent, it declines rapidly
to one and five-tenths percent at eight weeks
gestational age, and less than one percent at nine
weeks gestational age or later;
(13) The presence of a heartbeat in an unborn
child represents a more definable point of
ascertaining survivability than the ambiguous

61a
concept of viability that has been adopted by the
Supreme Court, especially since if a heartbeat is
detected at eight weeks gestational age or later in a
normal pregnancy, there is likely to be a viable
pregnancy and there is a high probability that the
unborn child will survive to birth;
(14) The placenta begins developing during the
early first trimester of pregnancy and performs a
respiratory function by making oxygen supply to and
carbon dioxide removal from the unborn child possible
later in the first trimester and throughout the second
and third trimesters of pregnancy;
(15) By the fifth week of gestation, the
development of the brain of the unborn child is
underway. Brain waves have been measured and
recorded as early as the eighth week of gestational age
in children who were removed during an ectopic
pregnancy or hysterectomy.
Fetal magnetic
resonance imaging (MRI) of an unborn child’s brain is
used during the second and third trimesters of
pregnancy and brain activity has been observed using
MRI;
(16) Missouri law identifies the presence of
circulation, respiration, and brain function as indicia
of life under section 194.005, as the presence of
circulation, respiration, and brain function indicates
that such person is not legally dead, but is legally
alive;
(17)
Unborn children at eight weeks
gestational age show spontaneous movements, such
as a twitching of the trunk and developing limbs. It
has been reported that unborn children at this stage
show reflex responses to touch. The perioral area is
the first part of the unborn child’s body to respond to

62a
touch at about eight weeks gestational age and by
fourteen weeks gestational age most of the unborn
child’s body is responsive to touch;
(18) Peripheral cutaneous sensory receptors,
the receptors that feel pain, develop early in the
unborn child. They appear in the perioral cutaneous
area at around seven to eight weeks gestational age,
in the palmar regions at ten to ten and a half weeks
gestational age, the abdominal wall at fifteen weeks
gestational age, and over all of the unborn child’s body
at sixteen weeks gestational age;
(19) Substance P, a peptide that functions as a
neurotransmitter, especially in the transmission of
pain, is present in the dorsal horn of the spinal cord of
the unborn child at eight to ten weeks gestational age.
Enkephalins, peptides that play a role in
neurotransmission and pain modulation, are present
in the dorsal horn at twelve to fourteen weeks
gestational age;
(20) When intrauterine needling is performed
on an unborn child at sixteen weeks gestational age or
later, the reaction to this invasive stimulus is blood
flow redistribution to the brain. Increased blood flow
to the brain is the same type of stress response seen
in a born child and an adult;
(21) By sixteen weeks gestational age, pain
transmission from a peripheral receptor to the cortex
is possible in the unborn child;
(22) Physicians provide anesthesia during in
utero treatment of unborn children as early as sixteen
weeks gestational age for certain procedures,
including those to correct fetal urinary tract
obstruction.
Anesthesia is administered by

63a
ultrasound-guided injection into the arm or leg of the
unborn child;
(23)
A leading textbook on prenatal
development of the human brain states, “It may be
concluded that, although nociperception (the actual
perception of pain) awaits the appearance of
consciousness, nociception (the experience of pain) is
present some time before birth. In the absence of
disproof, it is merely prudent to assume that pain can
be experienced even early in prenatal life (Dr. J.
Wisser, Zürich): the fetus should be given the benefit
of the doubt”. Ronan O’Rahilly & Fabiola Müller. The
Embryonic Human Brain: An Atlas of Developmental
Stages (3d ed. 2005);
(24) By fourteen or fifteen weeks gestational
age or later, the predominant abortion method in
Missouri is dilation and evacuation (D&E). The D&E
abortion method includes the dismemberment,
disarticulation, and exsanguination of the unborn
child, causing the unborn child’s death;
(25) The Supreme Court acknowledged in
Gonzales v. Carhart, 550 U.S. 124, 160 (2007), that
“the standard D&E is in some respects as brutal, if not
more, than the intact D&E” partial birth abortion
method banned by Congress and upheld as facially
constitutional by the Supreme Court, even though the
federal ban was applicable both before and after
viability and had no exception for the health of the
mother;
(26)
Missouri’s ban on the partial birth
abortion method, section 565.300, is in effect because
of Gonzales v. Carhart and the Supreme Court’s
subsequent decision in Nixon v. Reproductive Health
Services of Planned Parenthood of the St. Louis

64a
Region, Inc., 550 U.S. 901 (2007), to vacate and
remand to the appellate court the prior invalidation of
section 565.300. Since section 565.300, like Congress’
ban on partial birth abortion, is applicable both before
and after viability, there is ample precedent for the
general assembly to constitutionally prohibit the
brutal D&E abortion method at fourteen weeks
gestational age or later, even before the unborn child
is viable, with a medical emergency exception;
(27) In Roper v. Simmons, 543 U.S. 551 (2005),
the Supreme Court determined that “evolving
standards of decency” dictated that a Missouri statute
allowing the death penalty for a conviction of murder
in the first degree for a person under eighteen years
of age when the crime was committed was
unconstitutional under the Eighth and Fourteenth
Amendments to the United States Constitution
because it violated the prohibition against “cruel and
unusual punishments”;
(28) In Bucklew v. Precythe, 139 S. Ct. 1112,
1123 (2019), the Supreme Court noted that
“‘[d]isgusting’ practices” like disemboweling and
quartering “readily qualified as ‘cruel and unusual’, as
a reader at the time of the Eighth Amendment’s
adoption would have understood those words”;
(29) Evolving standards of decency dictate that
Missouri should prohibit the brutal and painful D&E
abortion method at fourteen weeks gestational age or
later, with a medical emergency exception, because if
a comparable method of killing was used on:
(a) A person convicted of murder in the first
degree, it would be cruel and unusual punishment; or

65a
(b) An animal, it would be unlawful under state
law because it would not be a humane method,
humane euthanasia, or humane killing of certain
animals under chapters 273 and 578;
(30) In Roper, the Supreme Court also found
that “[i]t is proper that we acknowledge the
overwhelming weight of international opinion against
the juvenile death penalty.... The opinion of the world
community, while not controlling our outcome, does
provide respected and significant confirmation for our
own conclusions”. Roper, 543 U.S. at 578. In its
opinion, the Supreme Court was instructed by
“international covenants prohibiting the juvenile
death penalty”, such as the International Covenant on
Civil and Political Rights, 999 U.N.T.S. 171. Id. at
577;
(31) The opinion of the world community,
reflected in the laws of the United Nation’s 193member states and six other entities, is that in most
countries, most abortions are prohibited after twelve
weeks gestational age or later;
(32) The opinion of the world community is also
shared by most Americans, who believe that most
abortions in the second and third trimesters of
pregnancy should be illegal, based on polling that has
remained consistent since 1996;
(33) Abortion procedures performed later in
pregnancy have a higher medical risk for women.
Compared to an abortion at eight weeks gestational
age or earlier, the relative risk increases
exponentially at later gestational ages. The relative
risk of death for a pregnant woman who had an
abortion performed or induced upon her at:

66a
(a) Eleven to twelve weeks gestational age is
between three and four times higher than an abortion
at eight weeks gestational age or earlier;
(b) Thirteen to fifteen weeks gestational age is
almost fifteen times higher than an abortion at eight
weeks gestational age or earlier;
(c) Sixteen to twenty weeks gestational age is
almost thirty times higher than an abortion at eight
weeks gestational age or earlier; and
(d) Twenty-one weeks gestational age or later
is more than seventy-five times higher than an
abortion at eight weeks gestational age or earlier;
(34) In addition to the short-term risks of an
abortion, studies have found that the long-term
physical and psychological consequences of abortion
for women include, but are not limited to, an increased
risk of preterm birth, low birthweight babies, and
placenta previa in subsequent pregnancies, as well as
serious behavioral health issues. These risks increase
as abortions are performed or induced at later
gestational ages. These consequences of an abortion
have a detrimental effect not only on women, their
children, and their families, but also on an already
burdened health care system, taxpayers, and the
workforce;
(35) A large percentage of women who have an
abortion performed or induced upon them in Missouri
each year are at less than eight weeks gestational age,
a large majority are at less than fourteen weeks
gestational age, a larger majority are at less than
eighteen weeks gestational age, and an even larger
majority are at less than twenty weeks gestational
age. A prohibition on performing or inducing an

67a
abortion at eight weeks gestational age or later, with
a medical emergency exception, does not amount to a
substantial obstacle to a large fraction of women for
whom the prohibition is relevant, which is pregnant
women in Missouri who are seeking an abortion while
not experiencing a medical emergency. The burden
that a prohibition on performing or inducing an
abortion at eight, fourteen, eighteen, or twenty weeks
gestational age or later, with a medical emergency
exception, might impose on abortion access, is
outweighed by the benefits conferred upon the
following:
(a) Women more advanced in pregnancy who
are at greater risk of harm from abortion;
(b)
Unborn children at later stages of
development;
(c) The medical profession, by preserving its
integrity and fulfilling its commitment to do no harm;
and
(d) Society, by fostering respect for human life,
born and unborn, at all stages of development, and by
lessening societal tolerance of violence against
innocent human life;
(36) In Webster, the Supreme Court noted, in
upholding a Missouri statute, “that there may be a 4week error in estimating gestational age”. Webster,
492 U.S. at 516. Thus, an unborn child thought to be
eight weeks gestational age might in fact be twelve
weeks gestational age, when an abortion poses a
greater risk to the woman and the unborn child is
considerably more developed. An unborn child at
fourteen weeks gestational age might be eighteen
weeks gestational age and an unborn child at eighteen

68a
weeks gestational age might be twenty-two weeks
gestational age, when an abortion poses a greater risk
to the woman, the unborn child is considerably more
developed, the abortion method likely to be employed
is more brutal, and the risk of pain experienced by the
unborn child is greater. An unborn child at twenty
weeks gestational age might be twenty-four weeks
gestational age, when an abortion poses a greater risk
to the woman, the unborn child is considerably more
developed, the abortion method likely to be employed
is more brutal, the risk of pain experienced by the
unborn child is greater, and the unborn child may be
viable.
3. The state of Missouri is bound by Article VI, Clause
2 of the Constitution of the United States that “all
treaties made, or which shall be made, under the
authority of the United States, shall be the supreme
law of the land”. One such treaty is the International
Covenant on Civil and Political Rights, entered into
force on March 23, 1976, and adopted by the United
States on September 8, 1992. In ratifying the
Covenant, the United States declared that while the
provisions of Articles 1 through 27 of the Covenant are
not self-executing, the United States’ understanding
is that state governments share responsibility with
the federal government in implementing the
Covenant.
4. Article 6, Paragraph 1, U.N.T.S. at 174, of the
International Covenant on Civil and Political Rights
states, “Every human being has the inherent right to
life. This right shall be protected by law. No one shall
be arbitrarily deprived of his life”. The state of
Missouri takes seriously its obligation to comply with
the Covenant and to implement this paragraph as it
relates to the inherent right to life of unborn human

69a
beings, protecting the rights of unborn human beings
by law, and ensuring that such unborn human beings
are not arbitrarily deprived of life. The state of
Missouri hereby implements Article 6, Paragraph 1 of
the Covenant by the regulation of abortion in this
state.
5. The state of Missouri has interests that include,
but are not limited to:
(1) Protecting unborn children throughout
pregnancy and preserving and promoting their lives
from conception to birth;
(2) Encouraging childbirth over abortion;
(3) Ensuring respect for all human life from
conception to natural death;
(4) Safeguarding an unborn child from the
serious harm of pain by an abortion method that
would cause the unborn child to experience pain while
she or he is being killed;
(5) Preserving the integrity of the medical
profession and regulating and restricting practices
that might cause the medical profession or society as
a whole to become insensitive, even disdainful, to life.
This includes regulating and restricting abortion
methods that are not only brutal and painful, but if
allowed to continue, will further coarsen society to the
humanity of not only unborn children, but all
vulnerable and innocent human life, making it
increasingly difficult to protect such life;
(6) Ending the incongruities in state law by
permitting some unborn children to be killed by
abortion, while requiring that unborn children be
protected in nonabortion circumstances through,
including, but not limited to, homicide, assault, self-

70a
defense, and defense of another statutes; laws
guaranteeing prenatal health care, emergency care,
and testing; state-sponsored health insurance for
unborn children; the prohibition of restraints in
correctional institutions to protect pregnant offenders
and their unborn children; and protecting the
interests of unborn children by the appointment of
conservators, guardians, and representatives;
(7) Reducing the risks of harm to pregnant
women who obtain abortions later in pregnancy; and
(8) Avoiding burdens on the health care
system, taxpayers, and the workforce because of
increased preterm births, low birthweight babies,
compromised pregnancies, extended postpartum
recoveries, and behavioral health problems caused by
the long-term effects of abortions performed or
induced later in the pregnancy.

71a
APPENDIX F
§ 188.038, Revised Statutes of Missouri
188.038.
Pregnant
women,
bias
or
discrimination against — findings of general
assembly — limitations on performing an
abortion, when. — 1. The general assembly of this
state finds that:
(1) Removing vestiges of any past bias or
discrimination against pregnant women, their
partners, and their family members, including their
unborn children, is an important task for those in the
legal, medical, social services, and human services
professions;
(2) Ending any current bias or discrimination
against pregnant women, their partners, and their
family members, including their unborn children, is a
legitimate purpose of government in order to
guarantee that those who “are endowed by their
Creator with certain unalienable Rights” can enjoy
“Life, Liberty and the pursuit of Happiness”;
(3) The historical relationship of bias or
discrimination by some family planning programs and
policies towards poor and minority populations,
including, but not limited to, the nonconsensual
sterilization of mentally ill, poor, minority, and
immigrant women and other coercive family planning
programs and policies, must be rejected;
(4) Among Missouri residents, the rate of black
or African-American women who undergo abortions is
significantly higher, about three and one-half* times
higher, than the rate of white women who undergo
abortions. Among Missouri residents, the rate of
black or African-American women who undergo

72a
repeat abortions is significantly higher, about one and
one-half* times higher, than the rate of white women
who undergo repeat abortions;
(5) Performing or inducing an abortion because
of the sex of the unborn child is repugnant to the
values of equality of females and males and the same
opportunities for girls and boys, and furthers a false
mindset of female inferiority;
(6) Government has a legitimate interest in
preventing the abortion of unborn children with Down
Syndrome because it is a form of bias or disability
discrimination and victimizes the disabled unborn
child at his or her most vulnerable stage. Eliminating
unborn children with Down Syndrome raises grave
concerns for the lives of those who do live with
disabilities. It sends a message of dwindling support
for their unique challenges, fosters a false sense that
disability is something that could have been
avoidable, and is likely to increase the stigma
associated with disability.
2. No person shall perform or induce an abortion on a
woman if the person knows that the woman is seeking
the abortion solely because of a prenatal diagnosis,
test, or screening indicating Down Syndrome or the
potential of Down Syndrome in an unborn child.
3. No person shall perform or induce an abortion on a
woman if the person knows that the woman is seeking
the abortion solely because of the sex or race of the
unborn child.
4. Any physician or other person who performs or
induces or attempts to perform or induce an abortion
prohibited by this section shall be subject to all
applicable civil penalties under this chapter

73a
including, but not limited to, sections 188.065 and
188.085.
*Words “a half” appear in original rolls.

74a
APPENDIX G
§ 188.056, Revised Statutes of Missouri
188.056. Abortion prohibited after eight weeks
gestational
age,
exception
for
medical
emergency — violation, penalty — severability
clause. — 1. Notwithstanding any other provision of
law to the contrary, no abortion shall be performed or
induced upon a woman at eight weeks gestational age
or later, except in cases of medical emergency. Any
person who knowingly performs or induces an
abortion of an unborn child in violation of this
subsection shall be guilty of a class B felony, as well
as subject to suspension or revocation of his or her
professional license by his or her professional
licensing board. A woman upon whom an abortion is
performed or induced in violation of this subsection
shall not be prosecuted for a conspiracy to violate the
provisions of this section.
2. It shall be an affirmative defense for any person
alleged to have violated the provisions of subsection 1
of this section that the person performed or induced
an abortion because of a medical emergency. The
defendant shall have the burden of persuasion that
the defense is more probably true than not.
3.
Prosecution under this section shall bar
prosecution under section* 188.057, 188.058, or
188.375 if prosecution under such sections would
violate the provisions of Amendment V to the
Constitution of the United States or Article I, Section
19 of the Constitution of Missouri.
4. If any one or more provisions, subsections,
sentences, clauses, phrases, or words of this section or
the application thereof to any person, circumstance, or

75a
period of gestational age is found to be unenforceable,
unconstitutional, or invalid by a court of competent
jurisdiction, the same is hereby declared to be
severable and the balance of the section shall remain
effective notwithstanding such unenforceability,
unconstitutionality, or invalidity.
The general
assembly hereby declares that it would have passed
this section, and each provision, subsection, sentence,
clause, phrase, or word thereof, irrespective of the fact
that any one or more provisions, subsections,
sentences, clauses, phrases, or words of the section, or
the application of the section to any person,
circumstance, or period of gestational age, would be
declared unenforceable, unconstitutional, or invalid.
*Word “sections” appears in original rolls.

76a
APPENDIX H
§ 188.057, Revised Statutes of Missouri
188.057. Abortion prohibited after fourteen
weeks gestational age, exception for medical
emergency — violation, penalty — severability
clause. — 1. Notwithstanding any other provision of
law to the contrary, no abortion shall be performed or
induced upon a woman at fourteen weeks gestational
age or later, except in cases of medical emergency.
Any person who knowingly performs or induces an
abortion of an unborn child in violation of this
subsection shall be guilty of a class B felony, as well
as subject to suspension or revocation of his or her
professional license by his or her professional
licensing board. A woman upon whom an abortion is
performed or induced in violation of this subsection
shall not be prosecuted for a conspiracy to violate the
provisions of this section.
2. It shall be an affirmative defense for any person
alleged to have violated the provisions of subsection 1
of this section that the person performed or induced
an abortion because of a medical emergency. The
defendant shall have the burden of persuasion that
the defense is more probably true than not.
3.
Prosecution under this section shall bar
prosecution under section* 188.056, 188.058, or
188.375 if prosecution under such sections would
violate the provisions of Amendment V to the
Constitution of the United States or Article I, Section
19 of the Constitution of Missouri.
4. If any one or more provisions, subsections,
sentences, clauses, phrases, or words of this section or
the application thereof to any person, circumstance, or

77a
period of gestational age is found to be unenforceable,
unconstitutional, or invalid by a court of competent
jurisdiction, the same is hereby declared to be
severable and the balance of the section shall remain
effective notwithstanding such unenforceability,
unconstitutionality, or invalidity.
The general
assembly hereby declares that it would have passed
this section, and each provision, subsection, sentence,
clause, phrase, or word thereof, irrespective of the fact
that any one or more provisions, subsections,
sentences, clauses, phrases, or words of the section, or
the application of the section to any person,
circumstance, or period of gestational age, would be
declared unenforceable, unconstitutional, or invalid.
*Word “sections” appears in original rolls.

78a
APPENDIX I
§ 188.058, Revised Statutes of Missouri
188.058. Abortion prohibited after eighteen
weeks gestational age, exception for medical
emergency — violation, penalty — severability
clause. — 1. Notwithstanding any other provision of
law to the contrary, no abortion shall be performed or
induced upon a woman at eighteen weeks gestational
age or later, except in cases of medical emergency.
Any person who knowingly performs or induces an
abortion of an unborn child in violation of this
subsection shall be guilty of a class B felony, as well
as subject to suspension or revocation of his or her
professional license by his or her professional
licensing board. A woman upon whom an abortion is
performed or induced in violation of this section shall
not be prosecuted for a conspiracy to violate the
provisions of this section.
2. It shall be an affirmative defense for any person
alleged to have violated the provisions of subsection 1
of this section that the person performed or induced
an abortion because of a medical emergency. The
defendant shall have the burden of persuasion that
the defense is more probably true than not.
3.
Prosecution under this section shall bar
prosecution under section*188.056, 188.057, or
188.375 if prosecution under such sections would
violate the provisions of Amendment V to the
Constitution of the United States or Article I, Section
19 of the Constitution of Missouri.
4. If any one or more provisions, subsections,
sentences, clauses, phrases, or words of this section or
the application thereof to any person, circumstance, or

79a
period of gestational age is found to be unenforceable,
unconstitutional, or invalid by a court of competent
jurisdiction, the same is hereby declared to be
severable and the balance of the section shall remain
effective notwithstanding such unenforceability,
unconstitutionality, or invalidity.
The general
assembly hereby declares that it would have passed
this section, and each provision, subsection, sentence,
clause, phrase, or word thereof, irrespective of the fact
that any one or more provisions, subsections,
sentences, clauses, phrases, or words of the section, or
the application of the section to any person,
circumstance, or period of gestational age, would be
declared unenforceable, unconstitutional, or invalid.
*Word “sections” appears in original rolls.

80a
APPENDIX J
§ 188.375, Revised Statutes of Missouri
188.375.
Citation of act — definition —
limitation on abortion, when — violation,
penalty — method or technique to be utilized —
severability clause. — 1. This section shall be
known and may be cited as the “Late-Term PainCapable Unborn Child Protection Act”.
2. As used in this section, the phrase “late-term
pain-capable unborn child” shall mean an unborn
child at twenty weeks gestational age or later.
3. Notwithstanding any other provision of law to the
contrary, no abortion shall be performed or induced
upon a woman carrying a late-term pain-capable
unborn child, except in cases of medical emergency.
Any person who knowingly performs or induces an
abortion of a late-term pain-capable unborn child in
violation of this subsection shall be guilty of a class B
felony, as well as subject to suspension or revocation
of his or her professional license by his or her
professional licensing board. A woman upon whom an
abortion is performed or induced in violation of this
subsection shall not be prosecuted for a conspiracy to
violate the provisions of this subsection.
4. It shall be an affirmative defense for any person
alleged to have violated the provisions of subsection 3
of this section that the person performed or induced
an abortion because of a medical emergency. The
defendant shall have the burden of persuasion that
the defense is more probably true than not.
5. Prosecution under subsection 3 of this section shall
bar prosecution under section* 188.056, 188.057, or
188.058 if prosecution under such sections would

81a
violate the provisions of Amendment V to the
Constitution of the United States or Article I, Section
19 of the Constitution of Missouri.
6. When in cases of medical emergency a physician
performs or induces an abortion upon a woman in her
third trimester carrying a late-term pain-capable
unborn child, the physician shall utilize the available
method or technique of abortion most likely to
preserve the life or health of the unborn child. In
cases where the method or technique of abortion most
likely to preserve the life or health of the unborn child
would present a greater risk to the life or health of the
woman than another legally permitted and available
method or technique, the physician may utilize such
other method or technique. In all cases where the
physician performs or induces an abortion upon a
woman during her third trimester carrying a lateterm pain-capable unborn child, the physician shall
certify in writing the available method or techniques
considered and the reasons for choosing the method or
technique employed.
7. When in cases of medical emergency a physician
performs or induces an abortion upon a woman during
her third trimester carrying a late-term pain-capable
unborn child, there shall be in attendance a physician
other than the physician performing or inducing the
abortion who shall take control of and provide
immediate medical care for a child born as a result of
the abortion.
8. Any physician who knowingly violates any of the
provisions of subsection** 6 or 7 of this section shall
be guilty of a class D felony, as well as subject to
suspension or revocation of his or her professional
license by his or her professional licensing board. A

82a
woman upon whom an abortion is performed or
induced in violation of subsection** 6 or 7 of this
section shall not be prosecuted for a conspiracy to
violate the provisions of those subsections.
9. If any one or more provisions, subsections,
sentences, clauses, phrases, or words of this section or
the application thereof to any person, circumstance, or
period of gestational age is found to be unenforceable,
unconstitutional, or invalid by a court of competent
jurisdiction, the same is hereby declared to be
severable and the balance of the section shall remain
effective notwithstanding such unenforceability,
unconstitutionality, or invalidity.
The general
assembly hereby declares that it would have passed
this section, and each provision, subsection, sentence,
clause, phrase, or word thereof, irrespective of the fact
that any one or more provisions, subsections,
sentences, clauses, phrases, or words of the section, or
the application of the section to any person,
circumstance, or period of gestational age, would be
declared unenforceable, unconstitutional, or invalid.
*Word “sections” appears in original rolls.
**Word “subsections” appears in original rolls.

